<html>
<title> - H.R. 50, ``MULTINATIONAL SPECIES CONSERVATION FUNDS REAUTHORIZATION ACT''; H.R. 1760, ``GREAT APE CONSERVATION REAUTHORIZATION AMENDMENTS ACT''; & H.R. 1761, ``MARINE TURTLE CONSERVATION REAUTHORIZATION ACT''</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
 H.R. 50, ``MULTINATIONAL SPECIES CONSERVATION FUNDS REAUTHORIZATION 
ACT''; H.R. 1760, ``GREAT APE CONSERVATION REAUTHORIZATION AMENDMENTS 
ACT''; & H.R. 1761, ``MARINE TURTLE CONSERVATION REAUTHORIZATION ACT''
=======================================================================

                          LEGISLATIVE HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE,
                       OCEANS AND INSULAR AFFAIRS

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, July 28, 2011

                               __________

                           Serial No. 112-55

                               __________

       Printed for the use of the Committee on Natural Resources



[GRAPHIC NOT AVAILABLE IN TIFF FORMT]




         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov

                              __________


                    U.S. GOVERNMENT PRINTING OFFICE
67-651 PDF                    WASHINGTON : 2012
___________________________________________________________________________
For sale by the Superintendent of Docments, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone toll free (866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2104 Mail Stop IDCC, Washington, DC 20402-0001









                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON FISHERIES, WILDLIFE, OCEANS
                          AND INSULAR AFFAIRS

                       JOHN FLEMING, LA, Chairman
     GREGORIO KILILI CAMACHO SABLAN, CNMI, Ranking Democrat Member

Don Young, AK                        Eni F.H. Faleomavaega, AS
Robert J. Wittman, VA                Frank Pallone, Jr., NJ
Jeff Duncan, SC                      Madeleine Z. Bordallo, GU
Steve Southerland, II, FL            Pedro R. Pierluisi, PR
Bill Flores, TX                      Colleen W. Hanabusa, HI
Andy Harris, MD                      Vacancy
Jeffrey M. Landry, LA                Edward J. Markey, MA, ex officio
Jon Runyan, NJ
Doc Hastings, WA, ex officio

                                 ------                                
      

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, July 28, 2011..........................     1

Statement of Members:
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     2
    Markey, Hon. Edward J., a Representative in Congress from the 
      Commonwealth of Massachusetts..............................     6
        Prepared statement of....................................     7
    Miller, Hon. George, a Representative in Congress from the 
      State of California........................................     9
    Pierluisi, Hon. Pedro R., the Resident Commissioner in 
      Congress from Puerto Rico..................................     8
    Sablan, Hon. Gregorio, a Delegate in Congress from the 
      Commonwealth of the Northern Mariana Islands...............     2
        Prepared statement of....................................     3
    Young, Hon. Don, the Representative in Congress for the State 
      of Alaska..................................................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Diez, Carlos E., National Sea Turtle Coordinator, Puerto Rico 
      Department of Natural and Environmental Resources..........    35
        Prepared statement on H.R. 1761..........................    36
    Hosmer, Joseph, President, Safari Club International 
      Foundation.................................................    37
        Prepared statement on H.R. 50............................    39
    Robinson, John G., Ph.D., Executive Vice President, 
      Conservation and Science, Wildlife Conservation Society....    22
        Prepared statement on H.R. 50, H.R. 1760, and H.R. 1761..    24
    Saito, Teiko, Assistant Director for International Affairs, 
      U.S. Fish and Wildlife Service, U.S. Department of the 
      Interior...................................................    11
        Prepared statement on H.R. 50, H.R. 1760, and H.R. 1761..    12
    Somerhalder, Ian, Celebrity Spokesman, Multinational Species 
      Conservation Fund Coalition................................    19
        Prepared statement on H.R. 50............................    20
    Stoinski, Tara S., Ph.D., Manager of Conservation 
      Partnerships, Zoo Atlanta, and Pat and Forest McGrath Chair 
      of Research and Conservation, The Dian Fossey Gorilla Fund 
      International..............................................    30
        Prepared statement on H.R. 1761..........................    32

Additional materials supplied:
    Feld, Kenneth J., Chairman and CEO, Entertainment, Inc., 
      Letter submitted for the record on H.R. 50.................    54
    Goodall, Jane, Ph.D., DBE, Founder, The Jane Goodall 
      Institute, and U.N. Messenger of Peace, Statement submitted 
      for the record on H.R. 1760................................    51
    Hanna, Jack, Director Emeritus, Columbus Zoo and Aquarium, 
      Statement submitted for the record on H.R. 50, H.R. 1760, 
      and H.R. 1761..............................................    52
    Multinational Species Coalition, Letter submitted for the 
      record on H.R. 50, H.R. 1760, and H.R. 1761................    55
                                     



 LEGISLATIVE HEARING ON H.R. 50, ``MULTINATIONAL SPECIES CONSERVATION 
   FUNDS REAUTHORIZATION ACT''; H.R. 1760, ``GREAT APE CONSERVATION 
    REAUTHORIZATION AMENDMENTS ACT''; & H.R. 1761, ``MARINE TURTLE 
                  CONSERVATION REAUTHORIZATION ACT.''

                              ----------                              


                        Thursday, July 28, 2011

                     U.S. House of Representatives

    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:14 a.m. in 
Room 1324, Longworth House Office Building, Hon. John Fleming, 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Young, Wittman, Sablan, 
Faleomavaega, Bordallo, Pierluisi, Hanabusa, Markey [ex 
officio]
    Also present: Representative Miller.

 STATEMENT OF HON. JOHN FLEMING, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF LOUISIANA

    Mr. Fleming. The Subcommittee will now come to order. The 
Chairman notes the presence of a quorum.
    Good morning. Today the Subcommittee will receive testimony 
on three bills, H.R. 50, H.R. 1760 and H.R. 1761, which would 
extend five conservation programs to assist African and Asian 
elephants, rhinoceros, tigers, great apes and marine turtles.
    Since the establishment of the first of these funds in 
1988, the Congress has appropriated some $90 million, which has 
attracted over $185 million in private matching funds. Together 
these monies have been used by the Fish and Wildlife Service to 
finance some 1,805 conservation grants to various range states 
throughout the world.
    In my invitation letter, I have asked each of our invited 
guests to respond to a fundamental question as to why Congress 
should continue to appropriate taxpayer money to these funds at 
a time when our national debt now exceeds $14 trillion. This 
was not a rhetorical question, and I am hoping to get a good 
answer.
    In addition, based on the numbers provided to me by the 
Fish and Wildlife Service, it is clear that private donations 
exceeded Federal appropriated funds by more than a two-to-one 
ratio. Why then is any Federal investment even necessary?
    If these bills are to proceed through the legislative 
process, we must be able to adequately justify, especially to 
our new Members and to me, of course, why they should vote to 
allocate scarce Federal dollars to assist in the conservation 
of these international species. I understand that we are not 
talking about a huge sum of money but, nevertheless, in our 
current fiscal condition we must account for every dollar of 
taxpayer money. I look forward to hearing the testimony on 
these proposals.
    I am now pleased to recognize our Ranking Democrat Member 
from the Commonwealth of the Northern Marianas, Congressman 
Sablan, for any statement he would like to make.
    [The prepared statement of Mr. Fleming follows:]

          Statement of The Honorable John Fleming, Chairman, 
    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    Good morning, today, the Subcommittee will receive testimony on 
three bills, H.R. 50, H.R. 1760 and H.R. 1761 which would extend five 
conservation programs to assist African and Asian Elephants, Rhinoceros 
and Tigers, Great Apes and Marine Turtles.
    Since the establishment of the first of these funds in 1988, the 
Congress has appropriated some $90 million which has attracted over 
$185 million in private matching funds. Together, these monies have 
been used by the Fish and Wildlife Service to finance some 1805 
conservation grants to various range states throughout the world.
    In my invitation letter, I have asked each of our invited witnesses 
to respond to a fundamental question as to why Congress should continue 
to appropriate taxpayer money to these Funds at a time when our 
national debt now exceeds $14 trillion dollars. This was not a 
rhetorical question and I am hoping to get a good answer. In addition, 
based on the numbers provided to me by the Fish and Wildlife Service, 
it is clear that private donations exceeded federal appropriated funds 
by more than a 2-to-1 ratio. Why then is any federal investment 
necessary?
    If these bills are to proceed through the legislative process, we 
must be able to adequately justify, especially to our new members and 
me, why they should vote to allocate scare federal dollars to assist in 
the conservation of these international species. I understand that we 
are not talking about a huge sum of money but nevertheless in our 
current fiscal condition, we must account for every dollar of taxpayer 
money.
    I would now like to recognize the Ranking Minority Member of the 
Subcommittee for any statement he would like to make at this time.
                                 ______
                                 

    STATEMENT OF HON. GREGORIO KILILI SABLAN, A DELEGATE IN 
 CONGRESS FROM THE COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS

    Mr. Sablan. Thank you very much, Chairman Fleming, and good 
morning, everyone. Charismatic wildlife like tigers, turtles 
and apes captivate the human imagination, sometimes in fear and 
sometimes in awe. These animals inspire an unmistakable 
connection between human beings and their environment.
    Unfortunately, the expansion of our human footprint on this 
planet often collides with wildlife and their habitat. The 
result of this collision can be disastrous for the habitat, as 
well as wildlife populations.
    Over a decade ago, Congress felt compelled to make a 
statement to the world that wildlife conservation is imperative 
and passed legislation to put Federal dollars behind that 
statement. The three bills we are considering today reauthorize 
programs with a proven track record of making our planet a 
better place for wildlife and to ensure future generations can 
enjoy these creatures.
    I commend my colleagues, Congressman Young, Congressman 
Miller and Congressman Pierluisi, for their continued 
leadership in the conservation of the world's most charismatic 
wildlife. Reauthorizing the Multinational Species Conservation 
Fund provides critical technical and cost-sharing grant 
assistance to range countries to protect and conserve African 
elephants, Asian elephants, rhinoceroses, tigers, great apes 
and marine turtles.
    Through the Fund, Federal dollars are leveraged by awarding 
grants to projects with matching nonFederal contributions. 
Every Federal dollar invested in the Fund routinely leverages 
one to four times that amount in nonFederal matching 
contributions. Clearly, the Fund has a proven track record of 
efficiency and achievement.
    With a modest investment, this fund has quite a list of 
accomplishments. For example, the Great Ape Conservation Act 
supports the work of important organizations like the Dian 
Fossey Gorilla Fund, which has operated the longest running 
gorilla conservation program in Rwanda.
    The Rhinoceros and Tiger Conservation Act is responsible 
for bringing a rhino education camp to 60 schools in the median 
areas that have high quality black rhinoceros habitat. The same 
fund supports collaborative efforts to conserve Amur tiger 
habitat adjacent to the Russia-China border where the remaining 
population is estimated to be only 350 adult tigers.
    And finally, the Marine Turtle Conservation Act supports a 
project monitoring and protecting hawksbill turtle nesting 
activity in the Pearl Cays in Nicaragua while simultaneously 
developing turtle-based ecotourism for the benefit of the local 
community.
    I commend these efforts to protect these highly endangered 
species. I would like to thank the witnesses for coming to this 
hearing today, and I look forward to hearing more of the 
success stories and about the vital importance of the 
protection efforts of this wildlife during your testimonies. 
Thank you, Mr. Chairman.
    [The prepared statement of Mr. Sablan follows:]

  Statement of The Honorable Gregorio Kilili Camacho Sablan, Ranking 
Member, Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    Thank you, Chairman Fleming. Charismatic wildlife, like tigers, 
turtles, and apes, captivate the human imagination. Sometimes in fear 
and oftentimes in awe, these animals inspire an unmistakable connection 
between human beings and their environment.
    Regrettably, the expansion of our human footprint on this planet 
often collides with wildlife and their habitat. The result of this 
collision can be disastrous for the habitat as well as wildlife 
populations. Over a decade ago Congress felt compelled to make a 
statement to the world that wildlife conservation is imperative and 
passed legislation to put federal dollars behind that statement. The 
three bills we are considering today reauthorize programs with a proven 
track record of making our planet a better place for wildlife and to 
ensure future generations can enjoy these creatures.
    I commend my colleagues, Congressmen Young, Miller, and Pierluisi 
for their continued leadership in the conservation of the world's most 
charismatic wildlife. Reauthorizing the Multinational Species 
Conservation Fund provides critical technical and cost-sharing grant 
assistance to range countries to protect and conserve African 
Elephants, Asian Elephants, Rhinoceroses, Tigers, Great Apes, and 
Marine Turtles. Through the Fund, federal dollars are leveraged by 
awarding grants to projects with matching non-Federal contributions. 
Every Federal dollar invested in the Fund routinely leverages one to 
four times that amount in non-Federal matching contributions. Clearly, 
the Fund has a proven track record of efficiency and achievement.
    With a modest investment, this Fund has quite a list of 
accomplishments. For example, the Great Ape Conservation Act supports 
the work of important organizations, like the Dian Fossey Gorilla Fund, 
which has operated the longest running gorilla conservation program in 
Rwanda. The Rhinoceros and Tiger Conservation Act is responsible for 
bringing a rhino education campaign to 60 schools in Namibian areas 
that have high quality black rhinoceros habitat. The same Fund supports 
collaborative efforts to conserve Amur tiger habitat adjacent to the 
Russia-China border, where the remaining population is estimated to be 
only 350 adult tigers. Finally, the Marine Turtle Conservation Act 
supports a project monitoring and protecting hawksbill turtle nesting 
activity in the Pearl Keys in Nicaragua, while simultaneously 
developing turtle-based ecotourism for the benefit of the local 
community.
    I commend these efforts to protect these highly endangered species. 
I would like to thank the witnesses for coming to this hearing today 
and I look forward to hearing more of these success stories and about 
the vital importance of the Multinational Species Conservation Fund 
during your testimonies.
                                 ______
                                 
    Mr. Fleming. I thank the gentleman.
    Based on the traditions of this Subcommittee, I would now 
like to recognize the former esteemed Chairman of this 
Committee and current Chairman of the Indian and Alaska Native 
Affairs Subcommittee, the distinguished gentleman from Alaska, 
Congressman Don Young, for any statement he would like to make 
on this bill.

STATEMENT OF HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ALASKA

    Mr. Young. Thank you, Mr. Chairman. I want to thank you for 
scheduling this hearing on my bill, H.R. 50. This measure will 
extend the authority to approve the conservation grants under 
the African Elephant Conservation Act, the Rhinoceros and Tiger 
Conservation Act and the Asian Elephant Conservation Act.
    In your invitation letter, as you said, you asked witnesses 
to explain to this Congress why we should continue to 
appropriate money, although our debt now exceeds $14 trillion. 
This is a good question. I hope the witnesses today understand 
that this is very, very important legislation and will testify 
why we need the minor amount of money the Federal government 
puts into this program.
    It is no exaggeration to suggest that without the grants, 
the populations of African and Asian elephants and rhinos and 
tigers would continue to decline. By investing a very small 
amount of U.S. taxpayer money, we have slowed that slide toward 
extinction.
    In 1988, in a rare moment of agreement, representatives of 
the Humane Society of the United States and Safari Club 
International came together in support of legislation to try to 
stop the slaughter of African elephants. The result of that 
agreement was the African Elephant Conservation Act.
    In the past 23 years, Congress has extended this law on 
four separate occasions. We have authorized $120 million to 
conserve these species. In reality, however, we have 
appropriated slightly more than $1 million a year. More 
importantly, though, this $26 million has been matched by $90 
million in private funds.
    The battle to save the African elephant really is far from 
over. In fact, the price of elephant ivory is now at $700 a 
pound, and 100 elephants are poached every day in Africa. They 
are being killed for their ivory, which is financing the 
terrorist activities of many rebel groups, including those 
associated with al-Qaeda.
    H.R. 50 also extends the Rhinoceros and Tiger Conservation 
Act, which was first enacted 17 years ago. Since that time, the 
Congress has authorized $170 million, appropriated $21 million 
and funded 505 conservation grants to assist highly endangered 
rhinoceros and tigers. These taxpayer funds were matched by $34 
million in private matching money.
    While these grants have been helpful in stabilizing the 
population of several subspecies of rhinoceros, sadly the 
future of wild tigers is increasingly bleak. In fact, the 
number of wild tigers has declined to as few as 3,000. It is 
essential to extend the Rhinoceros and Tiger Conservation Act 
because this fund is the only permanent source of money for 
these species, and it is a lifeline for the survival of the 
wild tigers.
    Finally, my bill reauthorizes the Asian Elephant 
Conservation Act. During the past 14 years, the Congress has 
authorized $75 million for the Asian Elephant Conservation 
Fund. However, just like the other two funds, significant 
private money has been raised. It is crucially important that 
we recognize that the funds also affect the great apes and 
marine sea turtles.
    Like many of my colleagues, I am committed to reducing our 
staggering national debt. However, we are not going to 
accomplish that goal on the backs of these landmark species. By 
spending this small amount of money, we are contributing to 
local economies which helps to stabilize the governments, 
thereby minimizing potential national security costs for our 
taxpayers in the future.
    There are a series of articles, Mr. Chairman, that go all 
the way back to when we introduced this bill, Mr. Miller and 
myself. We created some good legislation, but if we are to be 
involved and we give lots of assistance to the human side of it 
across Africa, maybe not enough in some areas, but the idea of 
this poaching that is going on now for very large, illegal 
people, many from Somalia that are supporting the terrorists 
against this country.
    This is a worthwhile cause. It is a minor amount of money, 
and I know under this debt there are a lot of other areas we 
ought to be cutting. I urge the support of this legislation. I 
look forward to our witnesses today to see what they have to 
say and explain why these Federal dollars are extremely 
important.
    With that, Mr. Chairman, I yield back the time, but thanks 
for listening to me.
    [The prepared statement of Mr. Young follows:]

Statement of The Honorable Don Young, a Representative in Congress from 
the State of Alaska, on H.R. 50, The Multinational Species Conservation 
                       Funds Reauthorization Act

    Mr. Chairman, I want to thank you for scheduling this hearing on my 
bill, H.R. 50. This measure will extend the authority to approve 
conservation grants under the African Elephant Conservation Act, the 
Rhinoceros and Tiger Conservation Act and the Asian Elephant 
Conservation Act.
    In your invitation letter, you asked our witnesses why this 
Congress should continue to appropriate money to these conservation 
funds at a time when our national debt exceeds $14 trillion dollars. 
Mr. Chairman, that is a fair and appropriate question.
    It is no exaggeration to suggest that without the grants, the 
populations of African and Asian elephants, rhinoceros and tigers would 
continue to decline. By investing a small amount of U.S. taxpayer money 
we have slowed their slide toward extinction.
    In 1988, in a rare moment of agreement, representatives of the 
Humane Society of the United States and Safari Club International came 
together in support of legislation to try to stop the slaughter of 
African elephants. The result of that agreement was the African 
Elephant Conservation Act. In the past twenty three years, Congress has 
extended this law on four separate occasions and we have authorized 
$120 million to conserve this species. In reality, however, we have 
appropriated slightly more than $1 million a year and, more 
importantly, this $26 million has been matched by over $90 million in 
private funds.
    The battle to save the African elephant is far from over. In fact, 
the price of elephant ivory is now more than $700 dollars a pound and 
100 elephants are poached every day throughout Africa. They are being 
killed for their ivory which is financing the terrorist activities of 
many rebel groups including some associated with al-Qaeda.
    H.R. 50 also extends the Rhinoceros and Tiger Conservation Act, 
which was first enacted 17 years ago. Since that time, the Congress has 
authorized $170 million, appropriated $21 million and funded 505 
conservation grants to assist highly endangered rhinoceros and tigers. 
These taxpayer funds were matched by $34 million in private matching 
money.
    While these grants have been helpful in stabilizing the population 
of several subspecies of rhinoceros, sadly, the future of wild tigers 
is increasingly bleak. In fact, the number of wild tigers has declined 
to as few as 3,000. It is essential to extend the Rhinoceros and Tiger 
Conservation Act because this Fund is the only permanent source of 
money for these species and it is a lifeline for the survival of wild 
tigers.
    Finally, my bill reauthorizes the Asian Elephant Conservation Act. 
During the past 14 years, the Congress has authorized $75 million for 
the Asian Elephant Conservation Fund. However, just like the other two 
funds, significantly less has been actually appropriated. In fact, $20 
million has been allocated or about $1.5 million per year. These funds 
were matched by $19 million in privately raised money. Together, these 
funds allowed the Secretary of the Interior to finance 307 conservation 
grants in 16 range countries.
    Under the terms of the Multinational Species Conservation Funds 
Reauthorization Act of 2011, these three conservation laws, which are 
strongly supported by nearly every hunting, conservation and animal 
rights organization, would be extended at existing funding levels for 
an additional five years. Each of these funds supports animals that are 
keystone--which means they are essential to the survival of hundreds of 
other species.
    For many range nations, a small grant of $25,000 represents the 
only hope they have of stopping heavily armed and organized poachers 
who are intent on killing the last African elephant, rhinoceros and 
tiger. These three laws have been extremely effective but the job of 
savings these species is not yet finished.
    Some years ago, Speaker Newt Gingrich spoke in support of the 
African Elephant Conservation Act. In his remarks, he noted that: 
``This is a very small amount of money, but it is symbolically very 
important, and symbolically important in part for the signal its sends 
to people in Africa and Asia.''
    I agree with the views of Speaker Gingrich and I am pleased that 
H.R. 2584, the Interior Appropriations bill, allocates $7.8 million for 
these Funds and those affecting Great Apes and Marine Sea Turtles. Like 
many of my colleagues, I am committed to reducing our staggering 
national debt. However, we are not going to accomplish that goal on the 
backs of these landmark species. By spending this small amount of 
money, we are contributing to local economies which helps to stabilize 
governments thereby minimizing potential national security costs for 
our taxpayers in the future.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Mr. Fleming. I thank the gentleman and thank the 
gentleman's efforts and commitment over the years for this.
    Next the Chairman would like to recognize Mr. Markey, the 
gentleman from Massachusetts, for an opening statement.

    STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Thank you. Thank you, Mr. Chairman, very much. 
Rhinos and tigers and apes, oh my. Rhinos and tigers and apes, 
oh my. Dorothy and the scarecrow and the tin man chanted a 
similar verse to each other when they entered the dark and 
creepy forest. They were calming their nerves from the fear of 
meeting wild animals.
    Today we are not in the dark forest, but I am chanting 
because I am afraid we might not meet these wild animals. 
Currently one-quarter of the mammals in the world are at risk 
of extinction. We are in a place where we might live to see 
majestic wild animals disappear from our planet. That is why it 
is important to reauthorize the Multinational Species 
Conservation Fund, which provides technical and grant 
assistance to protect six charismatic species: Asian and 
African elephants, rhino, tigers, apes and marine turtles.
    I commend my colleagues, former Chairman Miller, former 
Chairman Young, Congressman Pierluisi, for introducing 
legislation supporting the cost effective and valuable 
conservation of these rare and highly threatened species and 
for ensuring continued U.S. leadership and commitment in 
protecting, recovering and restoring wild animal populations in 
their native habitat.
    Why should we care about these charismatic species? The 
population counts are enough to scare anyone. In the last 18 
years, Sumatran rhinos declined to an estimated 300 individuals 
in Malaysia and Indonesia. Once abundant throughout Asia, wild 
tigers now number as few as 3,200 individuals who live in 
fragmented groups in protected forests, refuges and national 
parks. Recently discovered, only 300 Cross River gorillas 
remain between Nigeria and Cameroon.
    Potentially more frightening than these numbers are the 
links between the rarity of these species and the global trade 
in illegal wildlife. Just earlier this week a ton of elephant 
ivory was seized from a Philadelphia art dealer, who faces a 
maximum sentence of 20 years if convicted for violating the 
Endangered Species Act. In total, this illicit economy is worth 
$5 to $20 billion annually and has been linked to organized 
crimes and drug trafficking internationally.
    The Multinational Species Conservation Fund provides direct 
benefits to national security by encouraging alternative 
channels for diplomacy in conflict prone regions. Instead of 
trying to find our way back home like Dorothy and Ian 
Somerhalder's character in Lost, we should be on a quest to 
save these wild animals and their homes because in fact we have 
a responsibility to do more than just close our eyes and click 
our heels together. We have a responsibility to make sure that 
they are not lost from this earth. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Markey follows:]

     Statement of The Honorable Edward J. Markey, Ranking Member, 
                     Committee on Natural Resources

    Rhinos and tigers and apes! Oh my!
    Rhinos and tigers and apes! Oh my!
    Dorothy, Scarecrow, and Tin Man chanted a similar verse to each 
other when they entered the dark and creepy forest. They were calming 
their nerves from the fear of meeting wild animals. Today, we are not 
in the dark forest, but I am chanting because I am afraid we might NOT 
meet these wild animals.
    Currently, one quarter of the mammals in the world are at risk of 
extinction. We are in a place where we might live to see majestic wild 
animals disappear from our planet.
    That is why it is important to reauthorize the Multinational 
Species Conservation Fund, which provides technical and grant 
assistance to protect six charismatic species--Asian and African 
elephants, rhino, tigers, apes and marine turtles. I commend my 
colleagues, Congressman Miller, Pierluisi, and Young for introducing 
legislation supporting the cost-effective and valuable conservation of 
these rare and highly threatened species and for ensuring continued 
U.S. leadership and commitment in protecting, recovering, and restoring 
wild animal populations in their native habitat.
    Why should we care about these charismatic species? The population 
counts are enough to scare anyone.
        <bullet>  In the last 18 years, Sumatran rhinos declined to an 
        estimated 300 individuals remaining in Malaysia and Indonesia.
        <bullet>  Once abundant throughout Asia, wild tigers now number 
        as few as 3,200 individuals who live in fragmented groups, in 
        protected forests, refuges, and national parks.
        <bullet>  Recently discovered, only 300 Cross River gorillas 
        remain between Nigeria and Cameroon.
    Potentially more frightening than these numbers are the links 
between the rarity of these species and the global trade in illegal 
wildlife. Just earlier this week, a ton of elephant ivory was seized 
from a Philadelphia art dealer, who faces a maximum sentence of 20 
years if convicted for violating the Endangered Species Act. In total, 
this illicit economy is worth $5 to $20 billion annually, and has been 
linked to organized crimes and drug trafficking internationally. The 
Multinational Species Conservation Fund provides direct benefits to 
national security by encouraging alternative channels for diplomacy in 
conflict-prone regions.
    Instead of trying to find our way back home, like Dorothy and Ian 
Somerhalder's character in Lost, we should be on a quest to save these 
wild animals and their homes because, in fact, we have a responsibility 
to do more than just close our eyes and click our heels together. We 
have a responsibility to make sure they are not Lost from this earth.
                                 ______
                                 
    Mr. Fleming. I thank the gentleman.
    I would now like to recognize one of our Subcommittee 
colleagues, the gentleman from Puerto Rico, The Honorable Pedro 
Pierluisi, for any opening statement he would like to make on 
his bill, H.R. 1761.

   STATEMENT OF HON. PEDRO R. PIERLUISI, A REPRESENTATIVE IN 
                   CONGRESS FROM PUERTO RICO

    Mr. Pierluisi. Thank you, Chairman Fleming. First I want to 
express my sincere gratitude to you and Ranking Member Sablan 
for scheduling this hearing today on the three multinational 
species conservation bills, including my bipartisan bill, H.R. 
1761, the Marine Turtle Conservation Reauthorization Act.
    I also thank you, Mr. Chairman, for inviting as a witness 
my constituent, Carlos Diez, a biologist for 17 years with the 
Government of Puerto Rico's Department of Natural Resources and 
Environmental Resources. I thank the other witnesses for 
appearing today, including Teiko Saito for representing the 
dedicated employees of the U.S. Fish and Wildlife Service, and 
Ian Somerhalder, who is a great champion for wildlife 
conservation.
    Having survived for nearly 110 million years, marine 
turtles are among the world's oldest species. Marine turtles, 
like other majestic wildlife species that capture our hearts 
and imaginations, are in peril. Once plentiful, six of the 
seven documented species of marine turtles are listed today as 
endangered, their survival threatened by various factors, 
including human exploitation and encroachment into their 
natural habitat.
    Fortunately, we have in place a program at the Department 
of the Interior that supports partnerships and projects around 
the world to protect these species. This is because in 2004 in 
the face of declining marine turtle populations worldwide 
Congress enacted and President George Bush signed into law the 
Marine Turtle Conservation Act. This Act, which expired at the 
end of 2009, authorized the Fish and Wildlife Service to use a 
small amount of Federal funding to support conservation efforts 
aimed at saving these magnificent species.
    Since 2005, the program has been highly successful. 
Hundreds of applications have competed for $5.9 million in 
appropriated funds, which in turn helped secure an additional 
$8.6 million in nonFederal funds, a remarkable return on 
investment. This program has served to position the United 
States as the world's leader in marine turtle conservation.
    As Puerto Rico's representative in Congress, I have 
particularly keen interest in and special appreciation for 
marine turtles. At least four of the seven species of marine 
turtles are found in Puerto Rico's waters or nest on our 
beaches. These turtle species are the leatherback, the 
hawksbill, the green turtle and the loggerhead. Indeed, all of 
the coastal waters surrounding Culebra Island and Mona Island 
in Puerto Rico are designated as critical habitats by the 
Federal government.
    Mindful of the difficult fiscal environment, the bill I 
have introduced would reauthorize this program from 2012 to 
2017 at current funding levels. Importantly, the bill would 
amend existing law to allow the Fish and Wildlife Service to 
award grants for conservation projects within the United States 
and its territories, a power the agency does not presently 
possess.
    This approach would ensure that Federal support is 
available to conserve the six species of marine turtles listed 
under the Endangered Species Act, all of which nest on U.S. 
beaches or are found in U.S. waters. I believe the survival of 
the species is important for its own sake and also because they 
are instrumental in ensuring the health of the ocean ecosystem.
    Thank you again, Mr. Chairman, and I yield back the balance 
of my time.
    Mr. Fleming. I thank the gentleman.
    I would now like to ask unanimous consent that the 
gentleman from California, who is former Chairman of the 
Committee, Congressman George Miller, be allowed to join us on 
the dais and participate in the hearing. There being no 
objection, so ordered.
    I recognize Mr. Miller for any opening statement he would 
like to make on this bill, H.R. 1760.

 STATEMENT OF HON. GEORGE MILLER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Miller. Thank you very much, Mr. Chairman, and I am 
glad that Mr. Young didn't object. I appreciate it. Actually, 
Mr. Young and I have a long history of working together on a 
lot of issues before this Committee.
    But thank you so much for this hearing, for taking the time 
of the Committee to make this inquiry on these three pieces of 
legislation. These are very important pieces of legislation. I 
think you are asking the right question at the right time about 
the use of our Federal resources, of our taxpayer dollars.
    I think every taxpayer in America would be very proud to 
see the extent to which their dollars are leveraged in this 
program, the extent to which their dollars create the need for 
governments that would otherwise be reluctant to match our 
effort, to see what it brings in the nonprofit world in terms 
of that leverage but, more importantly, the commitment that has 
been created over the years in countries that had no capacity, 
perhaps not very much concern in fact, about these magnificent 
species to now having programs of commitment there.
    This is really sort of twofold. It provides a great 
opportunity for leverage, but it also is a great example of 
American leadership in a number of instances, in very troubled 
parts of the world where we speak to the needs of the people in 
those regions, in those countries, in those habitats, and are 
able to bring this kind of positive result.
    I will also say that what this program does is it creates 
the atmosphere so some very, very brave people are willing to 
risk their personal well being, their lives in fact, to come 
forward and provide the protection for in the case of my 
legislation the great apes from being slaughtered either within 
warfare or within the poaching that Mr. Young talked about that 
attacks the elephants. These people pay a great price, but this 
is the program that gives them the organizational ability to 
join up.
    I had the opportunity a number of years ago to spend a 
very, very early morning, like 3:00 in the morning, waiting to 
go out with some citizens of Kenya who were there to fight the 
poachers. As we sat and had some cups of tea and talked about 
their job, I asked them at one point as the sun was getting 
ready to come up. I said, ``So what do you do when you find 
these poachers?'' He said, ``We shoot them.'' I was stunned. I 
said, ``Why do you shoot them?'' He said, ``Because if they see 
us first, they will shoot us.''
    That is how serious this effort is. When you see an 
elephant--when you see an elephant, a healthy, mature 
elephant--lying on the ground that somebody has taken a 
chainsaw to its tusk, you realize how important this 
infrastructure is.
    We know the impact of these species--the lions and the 
elephants and the apes and our turtles--on our children, and 
that is true of children across the world. This relatively 
small amount of money--I know we always get a little worried 
when we get disconnected from our districts to Washington on 
what is large and small expenditures.
    This money creates the opportunity that the scientists and 
the program people will talk about today, and it also I think 
gives Congress an opportunity to every now and then go home and 
talk about our successes, which is hard to do sometimes, but 
this is a magnificent example of success under the American 
flag in some of the most troubled areas of the world.
    So thank you so much for the opportunity to have my say and 
to also give the time over to this Committee to the 
consideration of the reauthorization of these programs. Thank 
you, Mr. Chairman.
    Mr. Fleming. I thank the gentleman for his comments and 
again his commitment over the years as well.
    Now we will begin to hear from our witnesses. Like all 
witnesses, your written testimony will appear in full in the 
hearing record, so I ask that you keep your oral statements to 
five minutes as outlined in our invitation letter to you and 
under Committee Rule 4[a].
    Our microphones are not automatic, so please press the 
button when you are ready to begin. You have to sort of get 
close too. Sometimes they don't pick up well.
    Let me explain how the timing light works. For the first 
four minutes you will have a green light, the last minute you 
will have a yellow light and then when it turns red we ask that 
you wrap up. We have a lot of witnesses today, so we certainly 
want to be judicious about our time.
    Now I would like to welcome today's witnesses. First we 
have Ms. Teiko Saito, Assistant Director for International 
Affairs, U.S. Fish and Wildlife Service; Mr. Ian Somerhalder, 
an actor and founder of the Ian Somerhalder Foundation, who 
will be representing the Multinational Species Conservation 
Coalition and, as I understand it, from my own backyard in 
Louisiana, Covington. Welcome.
    Dr. John Robinson, Executive Vice President, Conservation 
Science, Wildlife Conservation Society; Dr. Tara Stoinski 
representing Zoo Atlanta and the Dian Fossey Gorilla Fund 
International; Mr. Carlos Diez, National Coordinator, Marine 
Turtle Project Program, Puerto Rico Natural Resources Agency; 
and Mr. Joseph Hosmer--am I saying that right, sir--President, 
Safari Club International Foundation.
    Ms. Saito, you are now recognized for five minutes.

STATEMENT OF TEIKO SAITO, ASSISTANT DIRECTOR FOR INTERNATIONAL 
            AFFAIRS, U.S. FISH AND WILDLIFE SERVICE

    Ms. Saito. Good morning, Chairman Fleming and Members of 
the Subcommittee. I am Teiko Saito, Assistant Director for 
International Affairs of the Fish and Wildlife Service within 
the Department of the Interior. Thank you for the opportunity 
to testify on H.R. 50, H.R. 1760 and H.R. 1761.
    The Department strongly supports these bills, which would 
reauthorize the Multinational Species Funds. We greatly 
appreciate the Committee's continued leadership and support of 
international wildlife conservation.
    The Multinational Species Conservation Fund provides 
critical support for the conservation of some of the world's 
rarest and threatened species in their natural habitats, 
including African and Asian elephants, rhinos, tigers, great 
apes and marine turtles. These species are ecologically 
important and aesthetically invaluable to Americans and people 
around the world. These conservation funds represent the United 
States' commitment to conserving these awesome species in the 
wild.
    All of the animals I mentioned face numerous threats, 
including poaching and habitat loss. The grant programs 
established through the Multinational Species Conservation 
Funds provide technical assistance, cost-shared grants to range 
countries. These include helping range countries build law 
enforcement and management capacity, conducting conservation 
education, surveys, monitoring, protecting habitat, conducting 
essential applied research and providing economic incentives 
for conservation.
    These conservation funds are the foundations for hundreds 
of projects around the world that address the needs of highly 
endangered species, and they provide focus and efficient 
support. From 2006 through 2010 collectively, the Multinational 
Species Conservation Funds have supported 967 projects with 
$53.6 million in grant funding and $84.6 million in matching 
contributions from our dedicated partners. From 2006 to 2010, 
the funds leveraged significant matching resources, achieving a 
1.6 match for every dollar spent.
    These conservation funds are an effective instrument to 
provide immediate and long range benefits for the conservation 
of these special species. In many cases, this is the only 
government dedicated funding for these species. The funds often 
initiate important projects that otherwise would not get off 
the ground, encouraging the support of other donors. Their 
impact is increasing as they achieve significant matching 
resources from a growing list of outside partners. The funds 
help secure the interest and commitment of governments and 
communities around the world.
    My written testimony highlights many examples of the 
importance of this funding for the survival of these keystone 
species, and I will briefly mention a couple of them. Prior to 
support from the Marine Turtle Conservation Fund, about 25 
percent of the Cape Verde loggerhead females were killed each 
year due to poaching. Support through the Marine Turtle 
Conservation Fund stopped virtually all non-natural deaths by 
supporting a coalition of three nongovernment organizations to 
work with local municipalities and national governments to 
reduce poaching.
    Another example involves the Rhino and Tiger Conservation 
Fund. This fund provided rhino protection units. These are law 
enforcement units which have been able to stop poachers from 
returning to protected areas. Given the value of rhino horns on 
the international market, it is estimated that the 200 rhinos 
remaining in Sumatra would be killed within five years and the 
40 rhinos remaining in Java would be killed within one year 
without the enforcement resources provided by the Rhino and 
Tiger Conservation Fund. The rhino protection units in Sumatra 
also help protect Asian elephants there.
    Mr. Chairman and Subcommittee Members, thank you again for 
the opportunity to testify. We really greatly appreciate your 
leadership in the conservation of these rare, globally 
important species and look forward to working with you as you 
continue to consider these bills.
    [The prepared statement of Ms. Saito follows:]

Statement of Teiko Saito, Assistant Director for International Affairs, 
  U.S. Fish and Wildlife Service, U.S. Department of the Interior, on 
 H.R. 50, The Multinational Species Conservation Funds Reauthorization 
  Act of 2011; H.R. 1760, The Great Ape Conservation Reauthorization 
 Amendments Act of 2011; and H.R. 1761, The Marine Turtle Conservation 
                      Reauthorization Act of 2011

    Chairman Fleming and Members of the Subcommittee, I am Teiko Saito, 
Assistant Director for International Affairs for the U.S. Fish and 
Wildlife Service (Service), Department of the Interior (Department).
    The Department appreciates this opportunity to testify on H.R. 50, 
the Multinational Species Conservation Funds Reauthorization Act of 
2011; H.R. 1761, the Great Ape Conservation Reauthorization Amendments 
Act of 2011; H.R. 1760, the Marine Turtle Conservation Reauthorization 
Act of 2011; and the U.S. Fish and Wildlife Service's (Service) 
implementation of these international conservation Acts.
    The Department strongly supports these bills, and we greatly 
appreciate the Subcommittee's continued leadership in international 
conservation. The Service has a long history of proactively addressing 
international wildlife species conservation. We work with private 
citizens, local communities, state and federal agencies, foreign 
governments, native peoples, and nongovernmental organizations to 
promote coordinated domestic and international strategies to protect, 
restore, and enhance wildlife and habitats. The Service is the agency 
charged with implementing the United States' obligations under several 
international conservation treaties, including the Convention on 
Wetlands of International Importance, the Convention on Nature 
Protection and Wild Life Preservation in the Western Hemisphere, and 
the Convention on International Trade in Endangered Species of Wild 
Fauna and Flora (CITES). Technical expertise and an on-the-ground 
presence through international agreements and other programs give the 
Service a unique role in conserving species and habitats around the 
world. The Multinational Species Conservation Funds (MSCFs) support the 
conservation of some of the world's rarest and most threatened species 
in their natural habitats, including the African elephant and Asian 
elephant, as well as rhinoceros, tigers, great apes, and marine 
turtles.
    The grant programs established through these Acts provide technical 
and cost-sharing grant assistance to range countries for species 
conservation and as such are a key element of the Service's Wildlife 
Without Borders-Species programs. These Acts represent the nation's 
commitment to help support conservation of rare and highly threatened 
species in the wild. In many cases, this is the only government 
dedicated funding for these particular species. The MSCFs provide 
opportunity for projects that otherwise would not get off the ground, 
encouraging other donors to support innovative and effective 
conservation efforts. They achieve significant leveraging of funds from 
a growing list of outside partners, which has greatly increased the 
impact of these grant programs. With a modest investment, the MSCFs are 
able to promote unprecedented achievements in the conservation of 
elephants, rhinos, tigers, great apes, and marine turtles. The funds 
help secure the interest and commitment of governments and communities 
around the world.
H.R. 50, the Multinational Species Conservation Funds Reauthorization 
        Act of 2011
    The Service strongly supports H.R. 50, the Multinational Species 
Conservation Funds Reauthorization Act of 2011, which reauthorizes the 
three longest-running Multinational Species Conservation Acts: the 
African Elephant Conservation Act, the Rhinoceros and Tiger 
Conservation Act, and the Asian Elephant Conservation Act.
The African Elephant Conservation Act
    African elephant populations are threatened by poaching, loss of 
habitat, and conflicts with humans. In the late 1970s, when elephant 
populations were thought to number about 1.3 million, the value of 
ivory skyrocketed in international markets from $7.50 per kilogram to 
over $400 per kilogram. This upsurge in ivory trafficking is believed 
to have cut Africa's elephant population in half. In 1989, the species 
was listed as Appendix I of CITES, making it illegal to trade in 
elephants or ivory commercially. Since then, populations have 
stabilized or recovered in a few southern African countries, but 
continued to decline in others.
    A new onslaught of poaching threatens elephants in some areas, 
while in others, elephants are increasingly coming into conflict with 
growing human settlements and farms. Most countries supporting wild 
populations of elephants are struggling to conserve them. Commercial 
poaching for meat and ivory, combined with instability from political 
conflict and civil war, have devastated many elephant populations, 
particularly in forest habitat of Central Africa. The Democratic 
Republic of the Congo (DRC), home to an estimated 112,000 elephants in 
1992, is now feared to have only six populations of little more than 
500 elephants. Vast areas that were occupied by elephants as recently 
as a decade ago are now devoid of these forest giants. The current 
continental population of savannah and forest elephants is estimated to 
be 500,000 to 600,000, but these increasing threats cloud the future of 
African elephant populations.
    The African Elephant Conservation Act, authorized by Congress in 
1988, created the African Elephant Conservation Fund (AfECF), which 
plays a critical role in assisting range countries to conserve and 
manage elephants and their habitats. From 2006 through 2010, the AfECF 
supported 138 projects with $8.2 million in grant funding and $22.2 
million in matching contributions from partners and collaborators. 
Projects funded include assisting range countries to build law 
enforcement and management capacity, mitigating human-elephant 
conflict, conducting conservation education, conducting surveys and 
monitoring, establishing corridors, and conducting essential applied 
research.
    For example, with this funding, the local wildlife authority in the 
DRC has been able to build patrol posts and train and equip rangers in 
and around Okapi Faunal Reserve and Virunga National Park. Trained 
officers have improved relations with local residents, removed 
thousands of snares, disarmed militias, and disbanded illegal bushmeat 
and charcoal operations in the protected areas.
    In other areas, such as in southern Africa, the elephants in 
protected areas are increasingly surrounded by human settlements and 
are becoming isolated, stressing the vegetation upon which elephants 
and other wildlife depend. Elephants moving through human settlements 
and farms come into conflict with humans trying to protect their homes 
and crops. Farmers may lose their crops, resulting in lost income, and 
they may even lose their lives when they attempt to defend their 
fields. Elephants may suffer debilitating injuries and are often killed 
in retaliation for raiding crops.
    The AfECF has supported research in Amboseli National Park in 
southern Kenya where agriculture is rapidly encroaching on elephant 
range. Support from the Fund allowed for collaboration between Duke 
University and the Amboseli Elephant Research Project to interpret crop 
raiding behavior to determine how such behavior begins and whether it 
is more common in related individuals or is influenced by other life 
history traits and social characteristics. This research will provide 
information crucial to understanding and managing human-elephant 
conflict.
The Rhinoceros and Tiger Conservation Act
    Rhino and tiger populations are particularly targeted by poachers 
because their body parts are in high demand on the global black market. 
Tiger organs and bones and rhino horns are used in Asian medicines and 
sold to consumers who believe these animal products convey strength, 
health, and virility. Rhino horns are also carved for dagger handles as 
a coveted status symbol in the Middle East
    The Rhinoceros and Tiger Conservation Act, authorized by Congress 
in 1994, has greatly assisted efforts to conserve the five rhino 
species (African and Asian) and five extant wild tiger sub-species. 
This is the only government-sponsored dedicated funding source for 
conservation of wild tigers in the world. From 2006 through 2010, the 
Rhinoceros and Tiger Conservation Fund (RTCF) supported 228 projects 
with $10.6 million in grant funding, and $18 million in matching 
contributions from partners and collaborators. A variety of projects 
have been funded, including surveys, conservation education, law 
enforcement, habitat protection, and capacity building.
    In Africa, there are two rhinoceros species: black rhinos and white 
rhinos. At one time, there were, among the black and white rhino 
species, five total subspecies. In the last ten years, two African 
rhino subspecies have gone extinct in the wild. Before 1900, Africa had 
more than one million rhinos, and they occurred in most sub-Saharan 
countries. But, by the 1990s, rhinos were extinct in many range states. 
Only 2,300 black rhinos and fewer than 10,000 white rhinos survived. 
Today, through support from the RTCF and tremendous dedication and 
sacrifice by our partners in Africa, black rhinos have slowly begun to 
recover, with a current population of more than 4,800. White rhinos are 
also recovering and now number more than 20,000, but a recent upsurge 
in rhino poaching threatens to undermine years of progress.
    Through the RTCF, the Service provides critical support to increase 
the capacity of park guards and wildlife management authorities to 
address poaching and other threats to rhinos in Africa. The RTCF 
provided infrastructure, training, and logistical support for the 
reintroduction of black rhinos to North Luangwa National Park in Zambia 
and to augment populations of rhinos in Serengeti and Mkomazi in 
Tanzania and at conservancies in Kenya, Zimbabwe, Namibia, and South 
Africa. Funds are continually needed to keep rhino populations safe 
throughout their remaining range.
    Asia supports three rhino species: the Indian rhino (or greater 
one-horned rhino), the Sumatran rhino, and the Javan rhino. The 
Sumatran and Javan rhinos in Southeast Asia are the most endangered, 
with only 200 and between 37-45 remaining, respectively. Strict 
protections, coupled with significant support from the RTCF and its 
partners, has increased numbers of the Indian rhino from fewer than 200 
early in the 20th century to an estimated 2,850 today.
    The RTCF is strengthening our partners that work with wildlife 
authorities in Nepal, as well as the police and the army, to assist in 
the identification and arrest of the poachers who have so badly damaged 
the country's rhino population in recent years. In Indonesia, the RTCF 
has partnered with the Indonesian Forest Department and a non-
government organization in support of highly effective, critically 
needed, anti-poaching patrols that protect Sumatran and Javan rhinos. 
These projects will increase rhino protection and law enforcement, 
reducing poaching of the most endangered rhino species in the world.
    Wild tigers, once abundant throughout Asia, now live in small 
fragmented groups, mostly in protected forests, refuges, and national 
parks. In general these populations are in decline. Tigers now occupy 
only 7 percent of their historic range and 40 percent less habitat than 
10 years ago. Recent surveys indicate the South China tiger may have 
become extinct in the wild, with only 47 remaining in China's zoos.
    There are many threats to the survival of wild tigers in addition 
to poaching including habitat destruction, loss of prey, and conflicts 
with human settlements. Experts estimate that more than 500 tigers are 
killed each year across their range. The illegal trade in tiger skins 
and in tiger bones for health tonics has resulted in the total loss of 
tiger populations in places such as India's Sariska Tiger Reserve. In 
addition to poaching-for-profit, tigers are killed by local villagers 
who fear attacks on humans or livestock. As human populations expand 
further into the habitats of wild animals, the resulting conflict poses 
a serious threat to both human and animal safety.
    The RTCF has supported projects throughout Asia aimed at conserving 
and protecting tigers and their habitat by building the capacity of 
poaching response teams and educating people living near tiger areas. 
For example, the critically endangered subspecies, the Russian ``Amur'' 
tiger, has been the focus of a successful, long-term anti-poaching 
campaign through the Phoenix Fund. With the RTCF's support, the 
campaign and associated annual tiger festivals reached thousands in 
Vladivostok and other cities throughout Russian province, Primorskii 
Krai. Grants have supported the development of curricula for hundreds 
of classrooms in the Krai, to teach students at all levels about tiger 
biology and conservation. A recent grant award funded a ``Teachers for 
Tigers'' manual that will increase the effectiveness of tiger 
conservation education efforts.
    In November 2010, the U.S. government attended the International 
Forum on Tiger Conservation in St. Petersburg, Russia, and endorsed the 
goal of doubling the number of tigers in the wild by 2022. Fulfilling 
that goal will take continued financial commitment from the U.S. and 
other international funding sources.
The Asian Elephant Conservation Act
    Large herds of elephants once roamed freely throughout the forests 
and savannas of Asia. Today, fewer than 40,000 Asian elephants exist in 
the wild, half of these in India. Habitat loss, poaching and human-
elephant conflicts are the largest threat to the survival of these 
animals in the wild.
    The Asian Elephant Conservation Act, authorized by Congress in 
1997, has greatly enhanced the conservation status of the Asian 
elephant. The Act supports the efforts of a wide range of partners to 
train wildlife professionals, improve law enforcement capacity, 
mitigate human-elephant conflict, establish community development 
programs, undertake applied research, raise awareness of elephant 
conservation issues, provide education programs, establish elephant 
corridors that minimize habitat fragmentation, and support the ongoing 
efforts of the 13 range country governments to survey, monitor, and 
develop effective elephant management strategies. From 2006 through 
2010, the Asian Elephant Conservation Fund (AsECF) supported 161 
projects with $8 million in grant funding and $10.2 million in matching 
contributions from partners and collaborators.
    Elephants require significant natural resources to survive. Mature 
bulls weigh as much as 11,000 pounds, and each elephant consumes more 
than 440 pounds of vegetation and 52 gallons of water every day. Each 
animal needs a ``living space'' of 80 square miles. Continued 
destruction of habitat and increased human settlement in areas 
previously occupied by elephants has resulted in rising incidents of 
crop-raiding and subsequent conflict with human communities. Similar to 
some African elephant populations, frequent raids by Asian elephants 
into agricultural fields, coupled with attempts by farmers to chase the 
animals away, often result in tragedy for both elephants and humans.
    The AsECF is supporting the development of new approaches to manage 
crop-raiding. A community operated elephant early warning system is now 
assisting villagers to protect their crops, reducing human wildlife 
conflict in Sri Lankan villages. With funding from the AsECF, the Sri 
Lanka Wildlife Conservation Society has developed an elephant intrusion 
early warning system called ``EleAlert''. The system supports electric 
fences around communities to keep elephants out rather than fence them 
in national parks. The system is completely operated and maintained by 
local villagers and provides the community with an audible alarm when 
an elephant intrusion occurs. It is estimated that the early warning 
system will allow villagers to identify problem fencing areas and 
points of elephant intrusions, thus helping to reduce the amount of 
crop and property damage.
    On the island of Sumatra in Indonesia, human-elephant conflict in 
previous decades led to the disappearance of at least nine populations 
of elephants. To ensure the survival of the remaining three elephant 
populations, the AsECF is supporting a promising new strategy that 
incorporates a training program, community guards, alarm systems, and 
elephant deterrents in five target villages around Way Kambas National 
Park. In Sri Lanka, the AsECF supported a project to monitor elephant 
movement and behavior within Yala National park and surrounding lands 
to develop an appropriate buffer zone to mitigate human-elephant 
conflict outside the park. The results of the project have not only 
yielded benefits for elephants and local communities in and around Yala 
National Park but are also changing the overall approach to elephant 
management in Sri Lanka.
    Poaching also poses a serious threat to survival for all 
populations. In parts of India, the poaching of male tuskers is 
altering the male Asian elephant population to include mainly tusk-less 
males known as ``mukhnas.'' The loss of males in general and tusked 
males in particular has resulted in highly skewed sex ratios in many 
wild Asian elephant populations. Tusks are very important behaviorally 
in dominance heirarchy, to attract mates, to fend off predators, to be 
used as a tool for digging and peeling bark. The AsECF provides support 
for law enforcement across the range countries especially in protected 
areas to prevent poaching for ivory and other products. This fund is 
working with the Forest Department law enforcement authorities in 
northeast India to protect Asian elephants in this important area for 
Asian elephants. The AsECF is also supporting law enforcement and 
protection for Asian elephants in Sumatra, Thailand, and Malaysia. The 
AsECF provided significant support for the Management Information 
System program, which is being used by many SE Asian countries to 
monitor their law enforcement effort.
    Through all of the MSCFs discussed above, the Service has 
implemented a streamlined process that allows for timely approval of 
projects and quick response to emergency situations. Each project 
funded is a cooperative effort with foreign governments, non-
governmental organizations, or private sector entities. No in-country 
project is approved unless it has the full support of in-country 
government officials, and has been identified as a project that will 
address the country's conservation priorities. Funding is delivered to 
the field rapidly and efficiently to target the most critical 
conservation needs. To implement these programs, the Service works with 
conservation partners within the U.S. and the range countries. These 
collaborators have vast on-the-ground experience and are experts on the 
ecology of the species as well as the human dimensions of conservation.
H.R. 1760, the Great Ape Conservation Reauthorization Amendments Act of 
        2011 
     The Service strongly supports H.R. 1760, the Great Ape 
Conservation Reauthorization Amendments Act of 2011, which leverages 
conservation actions to conserve more than 20 species of apes in Africa 
and Asia. The Great Ape Conservation Act (Act) was authorized by 
Congress in 2000 and created the Great Ape Conservation Fund (GACF) to 
assist efforts to conserve gorillas, chimpanzees, and bonobos in 
Africa, and orangutans and gibbons in Asia. H.R. 1760 would support 
great ape conservation by increasing the capacity of foreign 
governments, wildlife managers, local communities, and other 
organizations to address primary threats to the great apes, including 
habitat loss, illegal hunting, and the illegal pet trade.
    The GACF provides financial and technical support for a variety of 
projects and efforts. These include building institutional and human 
resource capacity, improving law enforcement, educating local 
communities about conservation issues, and providing economic 
incentives for conservation. In addition, GACF provides support for 
collecting key scientific data on ape species that are greatly needed 
to achieve ape conservation. This includes research related to 
distribution, population status, and infectious diseases. From 2006 
through 2010, the GACF supported 293 projects with $21.2 million in 
grant funding (also including funding transferred from the U.S. Agency 
for International Development Central Africa Regional Program for the 
Environment) to the GACF, and $25.8 million in matching contributions 
from partners and collaborators. Much of the success of the GACF is due 
to its direct and coordinated support of on-the-ground conservation 
projects in Africa and Asia. In Africa, the two countries containing 75 
percent of the gorilla population, the Republic of Congo and Gabon, 
experienced more than a 50 percent reduction in the gorilla population 
between 1983-2000. As a result, identifying and protecting the last 
great areas of significant great ape conservation interest is a 
priority under the Great Ape Conservation Act.
    For example, the Wildlife Conservation Society (WCS), a partner in 
the Republic of Congo, was awarded several small grants over a period 
of six years to determine gorilla status in the country. Surveys and 
other research done by their field teams produced an encouraging 
estimate of 125,000 western lowland gorillas in a vast area known as 
the `green abyss.' While this area was known as having significant 
potential to hold populations of gorillas and other wildlife, until the 
forests were studied, no one realized the potential of this and other 
large areas of intact forest to the conservation of great apes. There 
are numerous other such places that need surveys and, more importantly, 
immediate and effective conservation projects on the ground.
    In Asia, the wild population of orangutans is estimated at 50,000 
to 60,000 individuals. Orangutans are critically endangered due to 
habitat loss from logging, peat land drainage, and a rapid expansion in 
palm oil plantations. Orangutans are killed for meat, medicinal 
purposes, and for raiding agricultural fields, while infants are taken 
for the pet trade. Left unchecked, such factors will lead to 
extinction. The GACF is strengthening conservation of both orangutans 
and gibbons, tackling many similar threats and population declines.
    An innovative ongoing project in Indonesia's Gunung Palung National 
Park aims to incentivize the protection of critical orangutan habitat 
from illegal logging by providing healthcare benefits to communities 
that engage in reforestation efforts and organic farming. The GACF is 
supporting partner Health and Harmony in these efforts. The project not 
only directly benefits orangutans but also provides conservation-
related alternative livelihoods and healthcare to villagers in need, as 
well as critical field training for Indonesian medical practitioners. 
Grant funding has directly supported a conservation education room for 
local villagers, maps of degraded areas, a seedling nursery and an 
economically sustainable reforestation program. More than 20 villages 
are now participating in the program and are working to protect the 
orangutan's habitat.
    Perhaps the greatest threat to gorillas, chimpanzees, and bonobos 
in Africa, and to a lesser degree, orangutans and gibbons in Southeast 
Asia, is the illegal trade in bushmeat. Although apes comprise a small 
proportion of bushmeat production, poachers target them as their meat 
commands a premium price. Scientists have linked the consumption of 
bushmeat from apes to human contraction of the Ebola Hemorrhagic Fever 
virus. In addition, there is convincing scientific evidence linking the 
origin of HIV/AIDS to the consumption of chimpanzee meat. The risk of 
viruses of Ebola and HIV/AIDS being transferred between species poses 
incalculable danger to humanity. Ape bushmeat, as a known vector of 
fatal viral infections between gorillas and people, is therefore one of 
the greatest dangers to both wildlife and people in Central Africa.
    With support from the GACF, our partners such as the WCS's Global 
Health Program and the government of Congo conducted extensive field 
studies and established a rapid-response capacity in the event of 
further outbreaks of the Ebola virus. Working with African health 
officials and local communities, they made significant strides to 
create a first line of defense against this devastating disease that 
severely threatens both apes and humans.
    Section 2 of H.R. 1760 clarifies the Secretary's authority to issue 
multiyear grants, enabling the program to be more flexible in meeting 
the needs of grant recipients and allowing for increased capacity and 
stability to long-term projects in high priority areas. Overall, this 
provision will position the Service to better address the long-term 
threats facing ape populations throughout Africa and Asia. With regard 
to the requirement in Section 2 for a Panel of Experts, the Service has 
already taken steps to create such a panel. However, the creation and 
coordination of the panel will require resources above those committed 
to our existing responsibilities under the Great Ape Conservation Act.
H.R. 1761, the Marine Turtle Conservation Reauthorization Act of 2011
    The Service supports H.R. 1761, the Marine Turtle Conservation 
Reauthorization Act (MTCA) of 2011, with qualifications detailed in the 
comments below. This Act addresses some of the most urgent conservation 
issues regarding marine turtles. Marine turtles are ``flagship 
species'' for both local and international coastal conservation. 
Because marine turtles circumnavigate the world's oceans to reach their 
nesting beaches, their conservation must be addressed through global 
efforts. By focusing on these species and their habitats, we can more 
adequately conserve and manage ecologically critical coastal and marine 
habitats around the world.
    Less than 60 years ago, marine turtles were abundant, and 
widespread nesting on beaches was common. Today however, six of the 
seven marine turtle species (Kemp's ridley, Olive ridley, Loggerhead, 
Leatherback, Hawksbill, and Green turtle) are listed as endangered or 
threatened under the Endangered Species Act (ESA). All seven species 
are included in Appendix 1 of CITES. Because they disperse and migrate 
throughout the world's oceans, they are important indicators of coastal 
and marine environmental health on local, regional, and global scales.
    To recover depleted marine turtle populations, the Service has 
worked closely with countries supporting nesting beaches and with our 
sister federal agencies in sustained, long-term conservation efforts. 
For example, surveys of the Kemp's ridley turtles on a nesting beach in 
northeastern Mexico showed a drop from more than 40,000 nesting females 
estimated on one day in 1947 to fewer than 270 nesting females for the 
entire nesting season in 1985. The Service has worked with the Mexican 
government since 1978 to support nest protection measures that were 
first implemented in Mexico in the late 1960s, and this, along with the 
implementation in the 1990s of Turtle Excluder Devices (TEDs) in 
commercial fishing, has reversed this downward trend. During the mid-
1990s, surveys showed sustained increases in the number of recorded 
Kemp's ridley nests. In 2009 approximately 21,000 nests were recorded 
in Mexico.
    The future sustainability of marine turtles remains uncertain, 
however. In addition to threats facing nesting beach habitat, marine 
turtle populations continue to be threatened by exploitation of eggs 
and turtles, trade in turtle parts, and bycatch mortality. And, 
overall, nesting populations for most species have declined worldwide, 
except for the nesting populations receiving long-term, sustained 
conservation, such as the U.S.-Mexico bi-national effort for Kemp's 
ridley turtles or the conservation of globally significant hawksbill 
nesting populations in Mona Island, Puerto Rico.
    Since its enactment in 2004, the Marine Turtle Conservation Act has 
enabled the Service to support intensified nesting beach conservation 
on critical leatherback beaches in the Pacific in Mexico, Costa Rica, 
Indonesia, and Papua New Guinea. It is also playing a vital role in 
preventing a similar population crash of the West Africa leatherback 
nesting population. Based on an initiative in Gabon in 2005, the 
Service has helped organize governments and partners to work more 
closely together on nesting beaches, including nest protection on the 
key nesting beaches in Gabon and Congo subject to heavy exploitation. 
The Service has also helped establish community-based conservation 
programs with partners on remnant nesting populations in Liberia and 
Sierra Leone. From 2006 through 2010, the Marine Turtle Conservation 
Fund (MTCF) supported 147 projects with $5.6 million in grant funding, 
and $8.4 million in matching contributions from partners and 
collaborators.
    The MTCF works with local communities to raise awareness and halt 
the harvest on nesting beaches. The nesting population of Hawksbill 
turtles on Chirqui Beach in Panama was once the largest in the 
Caribbean, but decades of poaching for their shells completely 
devastated this important nesting site. The MTCF provided support to 
the Sea Turtle Conservancy to conduct extensive community outreach, 
beach monitoring, and protection of the nesting hawksbills in an effort 
to help the population recover. Public outreach and engagement with the 
local Ngobe Indian communities has been successful in reducing the 
poaching of nests and turtles on the beach, as well as reducing the 
capture of juvenile and adult turtles at sea by local fishermen. The 
project engages a broad coalition of partners from governments, 
communities, and NGOs, involving local communities, schools, and other 
stakeholders to build community support. The project has led to an 
impressive increase in the number of hawksbill nests over the last 
seven years and is now viewed as a model marine turtle conservation 
project.
    H.R. 1761 would enable the Service to continue in its role as a 
provider of dedicated funding for comprehensive, global coordination 
and collaboration in developing countries where resources and capacity 
for marine turtle conservation are limited.
    The Service recommends that the Subcommittee consider amending the 
bill's language authorizing the use of up to twenty percent of MTCA 
appropriations for domestic marine turtle conservation to instead 
authorize up to 20% of appropriated funds toward protecting freshwater 
turtles and tortoises worldwide.
    While marine turtle conservation continues to be a critical 
conservation need, we also recognize that freshwater turtles and 
tortoises are severely imperiled. Among the more than 300 species of 
freshwater turtles worldwide, twenty-five percent are facing imminent 
peril or extinction in the next decade. By bringing a focus to these 
species and their habitats, H.R. 1761 would allow us to leverage funds 
and attention to ecologically critical areas of the planet that need to 
be considered and managed more adequately.
Conclusion
    Mr. Chairman and Subcommittee Members, thank you again for this 
opportunity to update the Subcommittee on the Service's implementation 
of these Multinational Species Conservation Funds. We greatly 
appreciate your interest and your leadership in the conservation of 
rare, globally important species, and we look forward to working with 
you as you continue to consider the bills heard before the Subcommittee 
today. The Multinational Species Conservation Acts have formed the 
foundation for hundreds of projects around the world to address the 
needs of highly endangered species. These Acts produce focused and 
efficient support for the conservation of species that are ecologically 
important and aesthetically invaluable to Americans and people around 
the world. The Funds created by the Acts leverage significant matching 
resources, achieving a $1.60 match for every $1.00 spent from 2006 
through 2010. We firmly believe that the Multinational Species 
Conservation Funds are the most effective instrument in existence to 
provide immediate and long-term benefits for the conservation of these 
species.
                                 ______
                                 
    Mr. Fleming. Thank you, Ms. Saito, for your testimony.
    Now I recognize Mr. Ian Somerhalder, originally from 
Covington, as I said, and you now have, sir, five minutes.

      STATEMENT OF IAN SOMERHALDER, CELEBRITY SPOKESMAN, 
       MULTINATIONAL SPECIES CONSERVATION FUND COALITION

    Mr. Somerhalder. Good morning, Chairman Fleming, Ranking 
Member Sablan and Members of the Subcommittee. My name is Ian 
Somerhalder. I am an actor and founder of the Ian Somerhalder 
Foundation, a nonprofit organization dedicated to empowering, 
educating and collaborating with people to help them positively 
impact the planet and its creatures. I am also a global 
Ambassador for the Alliance for Global Conservation.
    I appreciate this opportunity to testify before you today 
on the legislation before us, the Multinational Species 
Conservation Funds Reauthorization Act. I would also like to 
take this opportunity to thank the Subcommittee and especially 
Chairman Fleming, who represents my home State of Louisiana, 
for the invitation to join him today.
    Environmental conservation has not just been a passion of 
mine, but a priority, and when I began to find through my work 
as an actor that I was gaining an increasingly prominent 
platform in front of the American public, I knew immediately 
what I needed to do. The IS Foundation is my attempt to use 
this opportunity to share the public's attention for the 
greater good.
    The IS Foundation, which has dozens of affiliate groups 
around the world as far off as India and Algeria, focuses on 
three themes: habitat conservation, species protection, and 
green energy initiatives. Our goal is to support a range of 
projects from more established, mature initiatives like the 
Alliance for Global Conservation to smaller, grassroots efforts 
initiated by individuals on the Gulf Coast and many other local 
communities.
    So the hope is that we can demonstrate ways for everyone to 
contribute on any scale, and we want to start conversations on 
these issues and allow them to grow and evolve naturally, so 
when a particular issue gathers enough momentum we will lend 
the resources needed to transform it from a conversation to a 
project, from a project into real progress.
    But in talking to people, especially young people, around 
the country I have found time and time again that the issue of 
species conservation is a particularly resonant one, and people 
are very passionate. They are passionately attached to the 
creatures that have captured their attention and their 
imagination since childhood, and they are invested in doing 
whatever is necessary to protect them. Species conservation is 
beyond a doubt an issue that truly matters to the American 
public. We are lucky in this case because most of our beloved 
species are clinging to survival by a thread.
    The legislation initially enacted in 1990 is viewed 
globally as a success story. With the U.S. leading the effort, 
governments around the world are able to begin investing in 
their ecosystems. From the Congo to Southern Sudan, we are 
finding that species conservation is paying off in terms of 
both the environment and local government action.
    As Congress considers H.R. 50, I thought it would be useful 
quickly to discuss the species that benefit from the U.S. Fish 
and Wildlife Service leadership in conservation: Asian and 
African elephants, apes, the plight of tigers and rhinos, but 
in the consideration of time let me address the marine turtles 
as an example of the desperate plight and the important 
opportunity we have to take action and continue to strengthen 
our collective efforts. I addressed the full impact of the 
other species I mentioned in my written testimony submitted for 
the record.
    Six of the seven marine turtle species are listed as 
threatened or endangered by the World Conservation Union and 
under the U.S. Endangered Species Act. Because marine turtles 
take 10 to 40 years to reach sexual maturity, they are 
vulnerable to predators, oil spills and bycatch, so restoring 
their numbers is a lengthy and very delicate task. They are 
truly the ancient mariners of our oceans with ancestors dating 
back over 100 million years.
    So while all species require tropical, subtropical or 
temperate oceanic beaches for nesting, each has a specific 
marine habitat and feeding requirements. I was very fortunate 
to go down to Trinidad and Tobago and watch these leatherbacks 
come out of the ocean under the cover of darkness and lay their 
eggs very artfully into the sand. It was every more gratifying 
that I actually got to see these hatchlings coming up out of 
the sand. It was amazing. They instinctually find their way 
back to the ocean, obviously still unfortunately facing an 
uncertain future.
    But there is a specific chain of events that occurs when 
these turtle populations drop. Loss of these turtle populations 
leads to an explosion of jellyfish populations, which can kill 
lower level food chain fish, which in turn have an impact on 
tuna and swordfish, which are big contributors to the human 
population. So we have already seen this increase in our 
beaches and, as you know, Chairman Fleming, it could have 
drastic fisheries implications in our home state.
    My foundation is in 190 countries at this point with a lot 
of global outreach, and I just want you to know that the 
ideology is backed by passion and commitment, so I just want to 
ask that the Subcommittee move quickly to mark up H.R. 50 and 
reauthorize this very important piece of legislation. Thank 
you.
    [The prepared statement of Mr. Somerhalder follows:]

               Statement of Ian Somerhalder on H.R. 50, 
    The Multinational Species Conservation Funds Reauthorization Act

    Good morning Chairman Fleming, Ranking Member Sablan, and Members 
of the Subcommittee. I am Ian Somerhalder, an actor and founder of the 
Ian Somerhalder Foundation, a not-for-profit organization dedicated to 
empowering, educating, and collaborating with people to help them 
positively impact the planet and its creatures. I am also a global 
Ambassador for the Alliance for Global Conservation.
    I appreciate this opportunity to testify before you today on H.R. 
50, the Multinational Species Conservation Funds Reauthorization Act. I 
would also like to take this opportunity to thank the Subcommittee, 
especially Chairman Fleming--who represents my home state of 
Louisiana--for the invitation to join you today.
    Wildlife and environmental conservation has always been not just a 
passion, but a priority of mine. When I began to find that through my 
work as an actor, I was gaining an increasingly prominent platform in 
front of the American public, I knew right away what I wanted to do 
with it. The IS Foundation is my attempt to use this opportunity, this 
share of the public's attention, for the greater good.
    The IS Foundation, which now has dozens of affiliate groups around 
the world from as far off as India and Algeria, focuses its work around 
3 themes: habitat conservation, species protection, and clean energy 
initiatives. Our goal is to support a range of projects, from more 
established, mature global initiatives like the Alliance for Global 
Conservation, to smaller, grassroots efforts initiated by individuals 
in the Gulf and other local communities. The hope is that we can 
demonstrate ways for everyone to contribute, on any scale. We want to 
start conversations on these issues and allow them to grow and evolve 
naturally. When a particular issue gathers enough interest and 
momentum, we'll lend the resources needed to transform it from a 
conversation into a project, and hopefully, eventually, from a project 
to real progress.
    In talking to people, and especially young people, all over the 
country, I have found time and time again that the issue of species 
conservation is a particularly resonant one. People are passionately 
attached to the creatures that have captured their attention and their 
imaginations since childhood, and they are invested in doing whatever 
is necessary to protect them. Species conservation is beyond a doubt an 
issue that truly matters to the American public. We're lucky this is 
the case, because many of our most beloved wildlife species are 
clinging to survival by a thread.
    This legislation initially enacted in 1990, is viewed globally a 
success story. With the U.S. leading the effort, governments around the 
world are able to begin investing in their ecosystems. From the Congo 
to Southern Sudan we are finding that species conservation is paying 
off in terms of both the environment and local government action.
    As Congress considers H.R. 50, I thought it would be useful to 
share my thoughts on the species that benefit from the U.S. Fish and 
Wildlife Service leadership on conservation.
    Tigers: Wild tigers are one such example--an amazing species under 
terrible threat by poachers and the gradual degradation of their 
habitat and prey base. According to big cat experts, only around 3,000 
tigers exist in the wild today, and experts estimate that more than 500 
tigers are killed each year. To make matters worse, the actual breeding 
population may be closer to a mere 1,000. Tigers are magnificent 
creatures: big, powerful, and charismatic. Unfortunately, these same 
qualities make them popular targets--the tiger's beautiful orange pelt 
commands a high price on the global black market, as do tiger body 
parts. Their organs and bones are used in Asian medicines, which are 
sold to consumers who believe these animal products convey strength, 
health and virility.
    Rhinoceroses: Rhinos, too, hover on the brink of extinction. 
Between 1970 and 1992, rhino populations declined by 96%, and fewer 
than 2,400 black and white rhinos survived in the wild. Conservation 
biologists tell me that today only 300 Sumatran rhinos remain. The low 
number of survivors is exacerbated by the fact that many rhinos live in 
small, fragmented populations, which may not be viable due to lack of 
breeding opportunities and risk of random events or disease. Rhino 
horns are carved for dagger handles as a coveted status symbol in the 
Middle East, and body parts and bones are sold on the black market as 
medicinal ingredients. The illegal trade in animal parts is a 
profitable business, and the demand for these products creates an 
ongoing temptation for poachers. Rhinos, and tigers too, also fall 
inadvertent victim to poachers' snares, set to trap other animals for 
bushmeat or trophies.
    African Elephants: African elephants are another species in 
terrible trouble. In the last century, rampant ivory poaching and 
habitat loss caused their numbers to drop from over ten million animals 
in 1900 to fewer than 500,000 by the late 1980s. Uncontrolled hunting 
and continued loss of habitat still threaten the African elephant 
today. In addition to the ivory and bushmeat trades, the loss of 
natural elephant habitat poses a major problem due to the resulting 
conflict between elephants and humans throughout Africa. As human 
populations grow and expand into remote areas, natural habitat is 
cleared and destroyed to make way for agriculture. Elephant populations 
are compressed into smaller ranges with limited food and water 
supplies. Hungry elephants wander into villages and damage crops. 
People often kill elephants in an attempt to stop the crop raids, and 
people themselves are also sometimes killed trying to fend off 
desperate elephants.
    Asian elephants: Like their relatives, Asian elephants are also 
struggling to survive. In the United States, Asian elephants are best 
known as familiar circus attractions. Yet throughout their homeland, 
captive elephants are primarily beasts of burden. An estimated 16,000 
Asian elephants are presently tamed and used for timber harvest, 
clearing forests, and agricultural development. Ironically, it is the 
destruction of forests, the advancement of agriculture, and the 
encroachment of human civilization that pose the greatest threats to 
the survival of Asia's wild elephants. Asian elephant populations have 
continued to decline due to loss of grazing areas and poaching driven 
by the ivory trade, and are listed as endangered on the Endangered 
Species Act.
    Marine Turtles: Six of the seven marine turtle species are listed 
as threatened or endangered by the World Conservation Union and under 
the U.S. Endangered Species Act. Because marine turtles require 10-40 
years to reach sexual maturity and are vulnerable to predation, oil 
spills, and as by-catch, restoring their numbers is a lengthy and 
delicate task. Marine turtles are truly the ancient mariners of the 
world's oceans, with ancestors dating back over 100 million years. 
While all species require tropical, subtropical, or temperate oceanic 
beaches for nesting, each has specific marine habitat and feeding 
requirements. I was fortunate earlier this summer to travel to Trinidad 
and Tobago and watch leatherback turtles emerge from the sea under 
cover of darkness to lay their eggs and bury them in the sand. It was 
even more gratifying to see the hatchlings dig their way out of their 
sandy nest and instinctively find their way to the ocean. . .still 
unfortunately facing an uncertain future.
    Great Apes such as gorillas and chimpanzees: Apes, by their nature, 
are extremely vulnerable. They have low population densities, grow 
relatively slowly, are long-lived, and have low reproductive rates and 
complex social relationships. Today, all the world's great ape species 
are threatened with extinction. Apes are susceptible to many of the 
same diseases as humans. As growing human populations penetrate further 
into ape habitat, the potential for disease transmission between apes 
and people, and vice versa, is increasing. As a result, the bushmeat 
trade poses a serious health risk for humans. Threats facing gorillas 
and chimpanzees include the loss, fragmentation and degradation of 
their habitat, as well as hunting for food, medicine and sport. Even 
with strong recovery programs, the chimpanzee population is 80% lower 
than 50 years ago, and it continues to drop.
    Looking around the world at these wildlife, it's abundantly clear 
that humans have benefited from nature in so many ways but have also 
brought many species to the brink of extinction. Scientists warn us 
that we are on the cusp of the largest mass extinction spasm since the 
dinosaurs. The American people that I interact with through my IS 
Foundation work do not want to allow this to happen; they do not want 
to let these species go without a fight; and they see the way in which 
nature provides for people around the world. This is an issue that 
Americans care deeply about, and it is critical that the United States, 
as a world leader and global power, continue to lead the planet's 
efforts in global species conservation. Due to instability or 
indifference in the areas that many of these species call home, for 
most of them we are the first, last, and only hope for survival. As the 
ones with the power to make a difference, the responsibility rests with 
us. It is imperative that we live up to it.
    On behalf of the Ian Somerhalder Foundation and the Alliance for 
Global Conservation, I urge the Subcommittee to mark-up H.R. 50 and 
move to reauthorize this important piece of legislation.
                                 ______
                                 
    Mr. Fleming. Thank you, Mr. Somerhalder.
    Next up is Dr. Robinson. Sir, you now have five minutes.

STATEMENT OF JOHN G. ROBINSON, PH.D., EXECUTIVE VICE PRESIDENT, 
      CONSERVATION SCIENCE, WILDLIFE CONSERVATION SOCIETY

    Dr. Robinson. I thank Chairman Fleming, Ranking Member 
Sablan and Members of the Subcommittee for the opportunity to 
testify on H.R. 50, H.R. 1760 and H.R. 1761, and I would like 
to thank Representatives Miller, Pierluisi and Young for 
introducing this legislation.
    I am Dr. John Robinson, Chief Conservation Officer with the 
Wildlife Conservation Society, a 115-year-old organization 
which is based at the Bronx Zoo and has conservation efforts in 
65 countries, many of which focus on tigers, elephants, 
rhinoceros, great apes and sea turtles, species which are the 
global priorities for the Multinational Species Conservation 
Funds.
    These funds have received bipartisan support, and they 
address the threats responsible for species declines. Both 
today and historically, Americans have supported efforts to 
prevent the extinction of such charismatic and culturally 
important species. WCS has worked closely with the U.S. Fish 
and Wildlife Service to implement conservation programs 
supported by the Multinational Species Conservation Funds. Let 
me highlight some of these.
    Members have noted that there are only about 3,000 tigers 
that live in the wild today, but of these only 1,000 are 
breeding females. The international trade in tiger parts has 
dramatically increased over the last five years, and the 
conservation funds are critical for effective protection of 
tiger populations at selected national parks and reserves.
    With elephants we have seen hunting levels approaching the 
pre-ivory ban levels over the last three years, especially in 
Central and West Africa. This poaching is driven by increased 
demand and price of ivory in Thailand, China and Japan. 
Conservation funds are supporting programs to protect critical 
elephant concentrations and control the illegal trade.
    Great apes, as noted, remain at dangerously low population 
numbers. The population of Cross River gorilla is down to less 
than 300, and the mountain gorillas do not exceed 750 animals. 
Remaining habitat needs to be protected, and bush meat hunting 
of these great apes needs to be stopped.
    Marine turtles spend their life at sea except when females 
come to beaches for nesting. Numbers of nesting females of 
green, hawksbill and leatherback turtles have relentlessly 
declined over the last decades. Conservation programs are 
focusing on managing the harvest at sea and protecting beaches.
    In this tough fiscal climate, it is essential to preserve 
inexpensive, efficient programs that provide tangible benefits. 
Appropriated funds are highly leveraged, and this year 
generated nearly $18 million in matching and in-kind 
contributions from partners. Not only that, but the involvement 
of the U.S. Government acts as a catalyst for national 
governments around the world to invest in their own 
conservation.
    The U.S. Fish and Wildlife Service runs a highly 
competitive and rigorous grant process and maintains tiny 
overheads, but in addition to these wildlife conservation 
outcomes Multinational Species Conservation programs have 
contributed to U.S. national security in countries like South 
Sudan and the Republic of Congo by allowing alternate channels 
of diplomacy through NGO's and technical experts, by promoting 
the respective law and good governance in conflict prone 
regions and by providing alternatives to violent insurgencies 
through things like ranger training and employment.
    In addition, programs to support an early warning system 
for outbreaks of deadly pathogens have prevented the spread of 
diseases such as the Ebola virus that threaten great apes and 
human populations.
    WCS strongly supports the reauthorization of these programs 
and recommends that Congress recognize the parallel integrity 
of these funds, the need to ensure continuity of strategic 
investments and the efficiency of placing these programs on the 
same authorization cycle and amend H.R. 50 to incorporate H.R. 
1760 and 1761 under a single Reauthorization Act. We also 
recommend that Congress maintain the existing authorization 
levels, allowing the growth of this invaluable and fiscally 
responsible program when the budgetary climate stabilizes.
    With respect to H.R. 1761, we recommend that the scope of 
the Marine Turtle Conservation Act be expanded to include 
freshwater turtles and tortoises, which are harvested 
extensively and are especially vulnerable to exploitation. Of 
the 318 species of freshwater turtles and tortoises, 168 are on 
the red list threatened with extinction.
    I appreciate the opportunity to share my perspectives on 
these important bills which will reaffirm the leadership of the 
U.S. Government within the international community, underscore 
our commitment to our international treaty obligations and 
encourage coordinated international efforts to save some of the 
world's most charismatic and valued species. Thank you.
    [The prepared statement of Dr. Robinson follows:]

    Statement of John G. Robinson, Ph.D., Executive Vice President, 
        Conservation and Science, Wildlife Conservation Society

Introduction
    On behalf of the Wildlife Conservation Society, I thank Chairman 
Fleming and members of the Subcommittee for the invitation to testify 
again before this Subcommittee. I am Dr. John G. Robinson, Executive 
Vice President and Chief Conservation Officer with the Wildlife 
Conservation Society, which was established by visionary 
conservationists such as Teddy Roosevelt in 1895. With a mission to 
conserve wildlife and wild places, the Bronx Zoo-based Wildlife 
Conservation Society (WCS) has over its 115-year history expanded 
operations into 65 countries, and today we work in landcapes and 
seascapes that contain nearly 25% of Earth's biodiversity across 
Africa, Asia, and the Americas. We are able to do so with the dedicated 
support of over 4,000 staff including 200 wildlife biologists, 
landscape ecologists, and field veterinarians. We are a trusted global 
organization that puts science into effective conservation action and 
the only organization with a global network of field conservation 
programs and partners, a wide range of curatorial, veterinary and 
educational expertise, and a complex of urban zoos that maintain, 
exhibit, breed, rescue and study a wide range of species.
    I testify in support of the enactment of the following pieces of 
legislation: H.R. 50, Multinational Species Conservation Funds 
Reauthorization Act of 2011, H.R. 1760, Great Ape Conservation 
Reauthorization Amendments Act of 2011, and H.R. 1761, Marine Turtle 
Conservation Reauthorization Act of 2011. I will demonstrate the 
continued investment of the U.S. government in global species 
conservation during these tough fiscal times and explain the direct and 
indirect benefits of such investment to U.S. interests. WCS would like 
to thank Representatives Don Young, George Miller and Pedro Pierluisi 
for introducing these pieces of legislation and Chairman Fleming and 
the Members of the Subcommittee for recognizing the importance of the 
programs to be reauthorized through H.R. 50, H.R. 1760, and H.R. 1761.
Primary Rationale for Continued Investment: Plight of Global Priority 
        Species
    The Multinational Species Conservation Funds (MSCF) are targeted 
investments in global priority species such as tigers, elephants, 
rhinoceros, great apes and sea turtles. This program came about due to 
strong bipartisan support to address the threats responsible for 
species declines, which began with the enactment of the African 
Elephant Conservation Act in 1988 to answer the illegal trade in ivory. 
Each of the species supported through these funds are subject to 
increased pressures from poaching, habitat destruction and other 
environmental factors. The following paragraphs briefly highlight the 
status of the species covered under the MSCF that WCS works to conserve 
in the wild:
Tigers
    Wild tigers (Panthera tigris) are threatened by poaching and the 
gradual degradation of their habitat and prey base. Poaching for the 
international trade to China including Tibet has resulted in decline 
and local extinction of populations across the tiger's range, and 
breeding populations in a number of countries, including Cambodia, 
China, DPR Korea and Vietnam, are no longer self-sustaining. Even in 
India, which contains half of all remaining tigers in the wild, a 
number of reserves such as Panna and Sariska in Rajasthan have lost 
their tigers. Tigers now occupy only 7% of their historical range. Only 
around 3,000 tigers exist in the wild today, of which only 1,000 are 
breeding females.
Elephants
    Both African and Asian elephant species are protected by MSCF-
backed research and conservation programs. African elephants (genus 
Loxodonta) continue to be threatened by poaching and habitat loss. 
Between 1979 and 1989, the population was estimated to have halved from 
1.2 million to between 500,000 and 700,000. The ban in trade in ivory 
in 1989 halted the steep decline, but over the last three years we have 
seen a dramatic increase in the proportion of illegally killed 
elephants, especially in Central and West Africa. This increase is 
correlated with high levels of poverty at a site level, and increased 
demand and higher prices for ivory in international markets. West 
African populations have shrunk to less than 10,000. Central African 
populations are approximately under 100,000 elephants. For instance, in 
Zakouma National Park in Chad, the last stronghold for the savanna 
elephants (Loxodonta africana) of Central Africa's Sahel region, fewer 
than 500 individuals remain, down from an estimated 3,000 in 2006. In 
Asia, the number of wild elephants (Elephas maximus) has been estimated 
at only about 50,000, but this is a crude guess. The predominant threat 
to wild populations is the continued habitat loss and degradation. 
Asian elephants only occupy 9 percent of their historical range, are on 
the verge of being extirpated in Vietnam, and are already extirpated in 
Pakistan, Iran, and Iraq.
Great Apes
    Great apes face grave threats: hunting and illegal wildlife trade 
to supply bushmeat and pets to urban markets; habitat destruction 
through logging, mining, and agriculture from local slash-and-burn to 
large-scale commercial plantations; and the spread of devastating 
infectious diseases such as Ebola. The rarest of the four subspecies of 
gorilla, the Cross River gorilla (Gorilla gorilla diehli), which is 
found on the border between Nigeria and Cameroon, has a population of 
less than 300 individuals. Mountain gorillas (Gorilla beringei 
beringei), which total only about 720 individuals, are threatened by 
encroachment into protected areas. As for chimpanzees (Pan 
troglodytes), the population is 80 percent lower than 50 years ago, 
even with strong recovery programs in place. Fewer than 7,000 Sumatran 
orangutans (Pongo abelii) remain in the wild. Population decline is 
primarily a consequence of the accelerating destruction of their native 
forest habitat by loggers, small-scale farmers, and agribusiness.
Marine Turtles
    Seven species of marine turtles currently navigate the oceans of 
which six species are listed in threatened categories on the 
International Union for Conservation of Nature (IUCN) Red List and 
included in Appendix I of the Convention on International Trade in 
Endangered Species of Wild Flora and Fauna (CITES): green turtle 
(Chelonia mydas), the leatherback (Dermochelys coriacea), the 
loggerhead (Caretta caretta), the hawksbill (Eretmochelys imbricata), 
the Kemp's ridley (Lepidochelys kempii), and the olive ridley 
(Lepidochelys olivacea). All marine turtles require 10-40 years to 
reach sexual maturity, nest on beaches, and are found from inshore 
reefs to deep oceans, making them vulnerable to a wide range of threats 
throughout their lives, including human and animal predation of their 
eggs, hatchlings and adults, oil spills, climate change, and being 
killed as bycatch. The IUCN global assessments for sea turtles, 
conducted over the past decade, show a 48 to 67 percent decline in the 
number of green turtle females nesting annually over the last three 
generations, and an 84 to 87 percent decline for hawksbills over the 
same time period. For leatherbacks, scientists in the 1990s estimated 
over 70 percent in reduction of the global population of adult females 
in less than one generation.
    Every species and subspecies protected by the MSCF continues to 
face significant threats, but this U.S. government investment provides 
critical intervention to populations that still exist in the wild. 
Targeted investment in conservation programs globally can produce 
successes, as noted below. It would be improper to conclude that 
conservation projects are ineffective merely because these species are 
still at risk. Without support from programs such as the MSCF, these 
animals could have already disappeared from our planet.
Why Invest in the Multinational Species Conservation Funds in this 
        Fiscal Climate?
    Conservation is an American tradition respected the world over and 
proudly supported at home. For example, a strong constituency for 
conservation exists among the domestic outdoor recreation, fishing and 
game industries, which annually contribute $730 billion to the U.S. 
economy, and support 6.5 million jobs.
    Although preservation of biodiversity and prevention of species 
extinctions are the central benefits, conservation programs are 
multifaceted investments that aid U.S. global policy priorities at 
various levels:
Global conservation maintains the U.S. legacy and model of protecting 
        species:
    The United States was the first country to make conservation of 
nature a national goal and as a result, current generations benefit 
from wild landscapes and charismatic species such as elk, pronghorn and 
bison. On an international scale, our prominent conservation tradition 
provides inspiration and guidance to other nations, which have followed 
American values and strategies by establishing national parks or 
refuges, designating wilderness areas, monitoring threatened species, 
and limiting or preventing habitat degradation and destruction. U.S. 
leadership in conservation enables us to uphold rigorous standards in 
negotiating several international treaties and commitments impacting 
species conservation, such as the Convention on International Trade in 
Endangered Species of Wild Fauna and Flora (CITES),which came about as 
a result of U.S. leadership in 1973.
    Wildlife conservation programs are a modest but essential piece of 
the United States' engagement with the developing world. Through the 
MSCF programs, the U.S. supplements the efforts of developing countries 
that are struggling to balance the immediate economic needs of their 
populations and the need to maintain ecosystem services and conserve 
biodiversity. MSCF programs help to sustain wildlife populations, 
address threats by controlling illegal poaching, reducing human-
wildlife conflict, and protecting essential habitat. By working with 
local communities, they also improve people's livelihoods, contribute 
to local and regional stability, and support U.S. security interests in 
impoverished regions. As former Speaker Newt Gingrich noted in 1995 on 
the House floor ``this is a very small amount of money, but it is 
symbolically very important. . .. because of the signal it sends to 
people, particularly in Africa and Asia, about whether or not the 
United States is prepared to reach out and be helpful.''
Americans support the Multinational Species Conservation Funds:
    No other developed nation makes a strategic investment in global 
species conservation the way the U.S. government does through the MSCF 
program. This program has always enjoyed strong bipartisan support in 
Congress and is represented by a diverse coalition comprised of 32 
national and international groups representing more than 20 million 
Americans. WCS is proud to be an implementing partner of this program 
and works with other institutions on the coalition such as the World 
Wildlife Fund, Safari Club International, Association of Zoos and 
Aquariums, Feld Entertainment, and others. This program has also 
attracted partners including other developed countries such as the 
Netherlands Germany, France, United Kingdom, and the European Union, 
private corporations like Exxon-Mobil and Disney, and range state 
governments. In the House of Representatives, MSCF enjoys strong 
bipartisan support with champions like former Speaker Newt Gingrich, 
Representatives Jim Saxton and Wayne Gilchrest and former chairs of the 
House Natural Resources Committee -Representatives Don Young and George 
Miller and former leaders of this Subcommittee -Representatives Henry 
Brown and Madeleine Bordallo. Every original authorization and 
reauthorization legislation for this program since 1989 has had strong 
bipartisan support.
The Multinational Species Conservation Funds are a targeted U.S. 
        investment:
    The MSCF are an efficient means of meeting the need for 
international conservation of critical species. Given that the U.S. 
dollar can be leveraged significantly in developing countries, modest 
investments in MSCF have reaped unmatched benefits for species 
conservation. In addition, the U.S. Fish and Wildlife Service 
administers the program with great rigor and clearly articulated goals 
and priorities with minimum overhead costs. In FY2010 alone, MSCF 
supported only 57 percent of proposals received (216 of the 379 grant 
proposals) indicating a substantial growing demand to support species 
conservation as well as a highly competitive and rigorous application 
process. Low administrative costs ensured that 97 percent of the funds 
appropriated by Congress were distributed through grants. The MSCF are 
particularly efficient because they provide a multiplying effect to 
recipient organizations. For every dollar appropriated by Congress, 
grant recipients leveraged an additional 1.6 dollars in FY2010, 
together raising nearly $19 million in additional funding. Between 
FY1990 and FY2005, Congress appropriated $37 million for MSCF, allowing 
the U.S. Fish and Wildlife Service to make incremental increases in the 
annual number of projects funded and partners added. During this time, 
matching and in-kind contributions from partners generated more than 
$100 million, supporting projects that could have otherwise been 
neglected. Without the U.S. Congress's foresight and the U.S. 
government's leadership, populations of some of the Earth's most 
revered species would have been extirpated.
The Multinational Species Conservation Funds provide high value at low 
        cost:
    There are few programs that can boast of a consistent track record 
of providing direct conservation assistance to wildlife species as well 
as the communities involved in saving them and protecting their 
habitat. The MSCF program exemplifies this strong conservation and 
fiscally responsible ethic. Foreign assistance costs approximately 1.3 
percent of the federal budget, and MSCF comprises only .02 percent of 
foreign assistance spending.
    On June 21, 2011, the Department of the Interior (DOI) released a 
report on its economic contributions detailing the financial impact of 
DOI bureaus and programs to the nation's economy. The MSCF program, 
specifically mentioned in the report, is noted as contributing to U.S. 
jobs and economy in FY2010. With the $11.5 million appropriated by 
Congress, the DOI has calculated the MSCF's economic impact at $22.6 
million while supporting 207 U.S. jobs. The average grant under this 
program often ranges between $25,000-$40,000 while the smallest grants 
to recipients have been $5,000. This reflects the focus of the U.S. 
Fish and Wildlife Service in supporting on-the-ground conservation 
projects that are fiscally responsible and have a strong conservation 
impact, and that they have been poised to respond with rapid action 
when called upon, for example providing surveillance support in 
response to organized syndicates poaching for elephant ivory. Apart 
from the inherent value of wildlife conservation and research, programs 
funded through MSCF have furthered U.S. interests by supporting 
American businesses. For example, specialized equipment deployed by 
wildlife biologists in the field such as dart guns, veterinary devices, 
mapping, graphics support, etc., is often produced by American 
manufacturers across major manufacturing states such as Texas, 
Wisconsin, Michigan and New Jersey.
MSCF help fight the spread of deadly infectious diseases:
    As a result of global transport and trade, global health threats 
can quickly spread from wildlife to human populations. Butchering and 
eating wild animals (known as bushmeat), especially great apes and 
other primates because of their genetic similarity to humans, is a 
particular risk. Emerging infectious diseases such as Ebola are 
widespread in tropical rainforests and are deadly to both humans and 
great apes. There is currently no available treatment for those 
infected with Ebola and the mortality rate can be as high as 90 
percent. For the past decade WCS's Animal Health Monitoring Network, 
funded in part by the Great Ape Conservation Fund, has encouraged rapid 
reporting and response to wildlife mortalities and illnesses. This 
network has provided critical information to researchers and public 
health agencies including the U.N. Food and Agriculture Organization, 
the Centers for Disease Control and Prevention and the National 
Institutes of Health, and serves as an early-warning system to possible 
future outbreaks in human communities. Human cases of measles, 
influenza, and tuberculosis--infectious diseases which are also 
extremely dangerous to great apes--are common in communities living 
near or in great ape habitat. Over the past seven years, WCS has 
sustained a highly efficient wildlife health surveillance program in 
the Republic of Congo which has resulted in over 40 great ape carcasses 
recovered and tested. In 2005, an estimated 5,000 gorillas in northern 
Congo disappeared, apparently as a result of an outbreak of Ebola, 
making a strong case for monitoring wildlife and disease in tropical 
forests to prevent transmission to humans.
MSCF contribute to national security by encouraging alternative 
        channels for diplomacy, respect for rule of law in conflict-
        prone regions, and alternatives to joining militias:
    Long-term investment by the U.S. government in species conservation 
has several direct benefits. For instance, training of Russian and 
Chinese personnel in Management Information System (MIST) law 
enforcement techniques, stewards transboundary collaboration between 
these governments and provides significant leverage to the U.S. in 
negotiating broader issues of mutual interest. Additionally, successful 
anti-poaching efforts inculcate respect for rule of law. MSCF funds 
enabled Wildlife Crimes Units in Indonesia to continue to arrest scores 
of illegal wildlife traders, and the arrest to prosecution ratio is 
nearly 70 percent (as compared to the national average of 5 percent). 
U.S. support for global conservation has allowed U.S.-based NGOs to 
strengthen local governance structures and management capabilities of 
park rangers, law enforcement units, indigenous governments and local 
municipalities.
    At the strategic level, conservation programs support the 
establishment of good governance, with concomitant impacts on natural 
resource management, social security, and economic sustainability. At 
the tactical level, global conservation programs provide education and 
jobs that help to stabilize war-torn regions and employ local citizens 
who might otherwise be recruited by local militias. For example, 
strengthening the Virunga National Park in the Democratic Republic of 
Congo provided jobs for hundreds of rangers during that nation's long 
civil war. These rangers both protected mountain gorillas and their 
habitat and helped control illegal logging and charcoal manufacturing 
that provided revenues to the insurgencies.
MSCF support sustainable alternative livelihoods for local people in 
        impoverished regions:
    Conservation programs provide livelihood opportunities to local 
people. For instance, since 2004, with support from the Marine Turtle 
Conservation Fund, WCS has trained 180 individuals from local 
communities across Africa and Central America, resulting in both long 
and short-term employment for local people as researchers. Sixty local 
women have joined research projects in Gabon, Democratic Republic of 
Congo and other sea turtle sites with support from this fund. WCS's 
efforts on Ebola surveillance in the Republic of Congo alone has 
supported 62 eco-guards, training for 20 researchers in carcass 
sampling and 30 field team leaders in health and biological sampling 
techniques; and educational programs on Ebola for over 915 hunters 
across 71 villages. Besides providing these services, the Great Ape 
Conservation Fund sustained and provided assistance to hire 4 field 
assistants, part-time employment for 74 porters and 2 U.S. 
veterinarians and biologists, 2 U.S. educators and 4 part-time 
Congolese biologists.
Strong MSCF success stories contribute to U.S leadership, goodwill and 
        commitment to conservation:
    The U.S. Fish and Wildlife Service has a strong record in choosing 
projects for funding which will have the strongest conservation 
outcome. Since 2007, the MSCF has supported WCS operations in 12 
African nations, helped in training 2,420 staff, generating nearly $7 
million in matching funds for U.S. funds and sustaining 44 partner 
organizations. In Asia, the MSCF has supported WCS operations in 10 
countries, training over a thousand staff and sustaining 42 U.S. 
wildlife biologists and field veterinarians while providing local 
employment opportunities for 166 essential personnel such as eco-
guards, law enforcement personnel, porters, technical assistants. These 
sustained partnerships have resulted in longstanding friendship and 
cooperation between the U.S. and range state wildlife protection and 
natural resource agencies.
    WCS appreciates that the partnership with MSCF has allowed us to 
achieve significant successes on the ground. These successes include:
        <bullet>  In the world's newest democracy, South Sudan, WCS has 
        collaborated with the government and local stakeholders to 
        establish a foundation for natural-resource management, land-
        use planning, and conservation to reduce conflict and catalyze 
        economic development. WCS surveys in 2007 with help from the 
        African Elephant Conservation Fund found 8,000 elephants and an 
        annual mammal migration that rivals in animal numbers those of 
        the Serengeti. Large tracts of savannas and wetlands have 
        survived decades of war and provide a real opportunity to 
        create a thriving tourism industry. The catalytic role of the 
        U.S. government in conservation has promoted the conditions for 
        a long-term success which hinges on the country's natural 
        endowment.
        <bullet>  This year, the Republic of Congo is in the process of 
        creating Ntokou-Pikounda National Park, which will protect an 
        additonal 15,000 western lowland gorillas from habitat loss and 
        poaching. The establishment of this area derives from a grant 
        from the Great Ape Conservation Fund, which tallied in 2008 
        more than 125,000 western lowland gorillas in the larger 
        landscape of 18,000 square miles.
        <bullet>  MSCF helped WCS conduct research and support 
        frameworks to create the Ulu Sebuyau National Park and the 
        Sedilu Orangutan Sanctuary for the protection of orangutans in 
        Malaysia.
        <bullet>  Due to MSCF funds four Tiger Reserves in India were 
        made significantly larger. The MSCF supported the Indian 
        scientists who gathered the technical information on tigers, 
        elephants and other wildlife and who led the efforts to expand 
        Anshi-Dandeli Tiger Reserve, Bhadra Tiger Reserve, Nagarahole 
        Tiger Reserve and Bandipur Tiger Reserve.
        <bullet>  MSCF funds supported the discovery of the world's 
        largest nesting site for leatherback sea turtles in Gabon on 
        the West Coast of Africa. Without MSCF, fewer than half of the 
        nesting beaches currently protected would be safe for 
        reproduction of this endangered species, and thousands of 
        turtles would perish each year.
Recommendations to the U.S. Congress
    As demonstrated through this testimony, the MSCF conserves gravely 
threatened elephants, tigers, rhinos, great apes and marine turtles and 
further research and conservation is necessary to secure their 
important roles in ecosystems. Functional ecosystems in turn are 
critical to provide the services necessary for human well-being. To 
this end, WCS requests the U.S. Congress to act swiftly to reauthorize 
this program with the following considerations:
    Maintain existing authorization levels: WCS understands the tough 
choices that the Congress needs to make in light of policy and fiscal 
priorities. WCS requests the Subcommittee closely consider the current 
funding levels for the MSCF, which average roughly around 35-40 percent 
of their existing authorization levels. Maintaining existing 
authorization levels would allow the MSCF to grow in the future 
enabling the U.S. Fish and Wildlife Service to award more grants and 
specifically help in achieving conservation successes. Cuts to 
authorization levels would not guarantee savings to the federal budget. 
On the contrary, cuts would certainly limit the growth of this 
invaluable and fiscally responsible program when our budgetary climate 
stabilizes.
    Enhance discretion of the U.S. Fish and Wildlife Service: The U.S. 
Fish and Wildlife Service remains deeply committed to the conservation 
of global species under the MSCF program. WCS requests the Subcommittee 
to protect its administrative functions and costs while maintaining its 
discretion to fund projects in high priority geographical locations. 
Such discretion would not only continue to foster partnerships with 
U.S. based NGOs and other entities but would amplify the reach of the 
program in range states that are political, military and economic 
allies of the United States.
    Expand the scope of the Marine Turtle Conservation Fund (MTCF) to 
freshwater turtles and tortoises and limit its jurisdiction to sea 
turtles occurring in U.S. territories: Like marine turtles, tortoises 
and freshwater turtles are long-lived species that mature late in life 
and are especially vulnerable to exploitation. Today their respective 
habitat is being increasingly fragmented, polluted or destroyed. Of 
about 318 species of freshwater turtles and tortoises, 168 have thus 
far been assessed as threatened with extinction and are listed on the 
IUCN Red List. Of the estimated 90 species in Asia, more than 50 
percent are considered to be either critically endangered or endangered 
according to the IUCN. An overwhelming number of freshwater turtles and 
tortoises are collected, traded in the illegal pet trade; and killed, 
and consumed as food and in traditional medicine--this is happening at 
an unsustainable rate. Some species of freshwater turtles and tortoises 
are down to their last few individuals and stopgap measures, including 
captive breeding, are underway to prevent their extinction. Together 
with the China Zoo Society, Changsha and Suzhou Zoos, WCS is helping 
with captive breeding techniques to save the Yangtze giant soft-shell, 
(Rafetus swinhoei)--the last chance of survival for the world's largest 
freshwater turtle. WCS endorses the U.S. Fish and Wildlife Service's 
desire to conserve freshwater turtles and tortoises and recommends that 
H.R. 1761 expand eligible species accordingly while ensuring such 
action does not diminish the modest level of funds allocated to marine 
turtles.
    An analysis of annual federal spending on sea turtles reveals that 
the MTCF is extremely targeted in terms of investing where the greatest 
needs exist. The U.S. Fish and Wildlife Service cooperates with the 
National Oceanic and Atmospheric Administration (NOAA) to invest in sea 
turtle conservation in the United States totaling over $25 million 
annually compared to $1.4 million on threatened species globally. 
Should H.R. 1761 expand the jurisdiction of this program, WCS 
recommends that such expansion be limited to sea turtles occurring in 
U.S. territories only.
    Maintain Multinational Species Conservation Funds as an umbrella 
program: While Congress has considered each species fund authorization 
at different periods of time, collectively the MSCF program has gained 
name recognition widely in Congress, within multiple Administrations 
and among partners. The Congress has a rare opportunity to reauthorize 
this program through H.R. 50, H.R 1760 and H.R. 1761 together under the 
banner of the Multinational Species Conservation Funds Reauthorization 
Act. WCS requests that H.R. 50 be amended to incorporate H.R. 1760 and 
H.R. 1761 to reflect this recommendation. This would not only ensure 
continuity of strategic investments but would also place these programs 
on the same reauthorization cycle.
    In conclusion, congressional action on H.R. 50, H.R 1760 and H.R. 
1761, will reaffirm the leadership of the U.S. Government within the 
global community, underscore U.S. commitment to international treaty 
obligations, and encourage coordinated efforts to save the world's 
global priority species. WCS urges the Subcommittee and the Congress as 
a whole to act quickly and positively on the reauthorization of these 
critical pieces of legislation. Thank you again for the opportunity to 
comment and to work with you on this issue.
                                 ______
                                 
    Mr. Fleming. Thank you, Dr. Robinson.
    Now, Dr. Stoinski, you are now recognized for five minutes.

       STATEMENT OF TARA S. STOINSKI, PH.D., ZOO ATLANTA 
         AND THE DIAN FOSSEY GORILLA FUND INTERNATIONAL

    Dr. Stoinski. Thank you, Mr. Chairman and Subcommittee 
Members, for the opportunity to testify in support of H.R. 
1760, the Great Ape Conservation Reauthorization Amendments 
Act.
    I am Dr. Tara Stoinski, and I serve as the McGrath Chair of 
Conservation and Science for the Dian Fossey Gorilla Fund, 
which has as its mission conserving gorillas and their habitats 
and helping the people that share the gorillas' forest home. I 
also serve as the Manager of Conservation Partnerships for Zoo 
Atlanta, which is an accredited member of the Association of 
Zoos and Aquariums.
    Mr. Chairman, the magnificent animals listed under the 
Great Ape Conservation Act are still in great peril today. The 
World Conservation Union categorizes all great apes as either 
endangered or critically endangered, and their populations 
across the world are rapidly declining from a multitude of 
threats, which include habitat loss, hunting, disease, mining, 
forest fires and civil conflict.
    H.R. 1760 represents a congressional commitment to continue 
to address the desperate plight of the great apes. The Great 
Ape Conservation Act is a proven formula that promotes 
cooperation among government entities, local communities, NGO's 
and the private sector. It funds on-the-ground, rapid result 
initiatives that can be seen and felt by local people.
    This is essential because it is only through local action, 
local education and local support that realistic solutions for 
saving the great apes can be devised and implemented. We highly 
recommend it be reauthorized at its current appropriation 
levels of $5 million per year.
    It is important to recognize that funds designated for ape 
conservation protect many species beyond the apes, including 
our own. Apes live almost exclusively in the tropical forests 
of Asia and Africa. Tropical forests cover only 7 percent of 
the world's surface, yet they contain an estimated 50 percent 
of the world's biodiversity.
    Africa's Congo Basin, which is home to all three species of 
African great apes and represents 18 percent of the world's 
remaining tropical rainforests, is estimated to contain over 
10,000 species of plants, 1,000 species of birds and 400 
species of mammals. For local human populations--and over 100 
million people live in the Congo Basin alone--the forests are a 
source of food, shelter, water and income. They serve as the 
world's pharmacy. Roughly 25 percent of today's medicines 
originated in the rainforest.
    They perform critical ecosystem services. At the local 
level they prevent soil erosion and regulate rainfall patterns. 
Globally they act as the lungs of the planet, storing carbon 
dioxide and releasing oxygen. By storing carbon dioxide, which 
is a greenhouse gas, forests play a critical role in mitigating 
global climate change. Roughly one-fifth of greenhouse gas 
emissions are carbon dioxide released as a result of 
deforestation. Thus, investment by the U.S. Government and 
taxpayers in protecting apes and their rainforest homes is more 
than good environmental stewardship. It is an investment in our 
own future.
    I would now like to highlight how the Great Ape 
Conservation Act has helped the Fossey Fund in our mission of 
saving gorillas and helping people. Our work conserving 
gorillas began in Rwanda in 1967 when Dr. Dian Fossey founded 
the Karisoke Research Center to study and protect one of the 
two remaining populations of the magnificent mountain gorilla.
    Karisoke has operated continuously over the last 44 years, 
making it the world's longest running gorilla conservation 
program, and the Great Ape Conservation Act has provided us 
with critical funding to maintain this long-term daily 
protection presence.
    I am extremely happy to report that our work is paying off. 
The mountain gorilla population has increased from a low of 250 
individuals at Dr. Fossey's time to 480 individuals today. This 
change of fortune for the mountain gorilla cannot be 
overstated. It is the only known wild great ape population that 
is increasing, and our scientific results clearly show that it 
is the high level of investment in protection over four decades 
that has enabled its remarkable recovery.
    In the Eastern Democratic Republic of Congo, Great Ape 
Conservation Act funding has been instrumental in our work 
developing a program for community conservation outside of 
national parks in which local people manage their own natural 
resources and protect the biological heritage. Using the 
gorilla as a flagship species, nine community reserves have 
been established which provide gorilla and overall forest 
protection to an area roughly the size of Connecticut. This is 
local people doing this work.
    In both Rwanda and Eastern Congo, the Great Ape 
Conservation Act has permitted the Fossey Fund to expand our 
health and development activities for the local human 
communities that share their environment with the gorillas. Our 
activities focus on treating intestinal parasites in people 
that live near protected areas, rehabilitating rural health 
clinics, building capacity through training medical personnel 
and increasing human access to clean water. We estimate that 
over 400,000 people have benefitted from these programs.
    Our experience at the Fossey Fund is clear. We have seen 
that support from the American people to save great apes 
inspires and motivates Africans. It brings the conservation 
struggle to their doorstep and empowers them to do something 
meaningful for their forest and their communities.
    It directly links African and American hearts and minds in 
a common goal; that together we can make room on our planet for 
our children, for the great apes and gorillas and for the 
majestic forests in which they live. Thank you.
    [The prepared statement of Dr. Stoinski follows:]

  Statement of Tara Stoinski, Ph.D., Pat and Forest McGrath Chair of 
Research and Conservation, The Dian Fossey Gorilla Fund International, 
 and Manager of Conservation Partnerships, Zoo Atlanta, on H.R. 1760, 
     The Reauthorization of the Great Ape Conservation Act of 2011

    Thank you Mr. Chairman for the opportunity to testify this morning 
on this very important piece of legislation, H.R. 1760--the 
reauthorization of the Great Ape Conservation Act Act.
    My name is Tara Stoinski, and I am the Pat and Forest McGrath Chair 
of Research and Conservation at the The Dian Fossey Gorilla Fund. The 
Dian Fossey Gorilla Fund has as its mission the conservation and 
protection of gorillas and their habitats in Africa. We are committed 
to promoting continued research on the gorillas and their threatened 
ecosystems and to providing education about their relevance to the 
world in which we live. In collaboration with government agencies and 
other international partners, we also provide assistance to local 
communities through education, health, training and development 
initiatives. Our tag line is saving gorillas, helping people because we 
feel that only integrated solutions to conservation that intimately 
involve and engage the local human population will save gorillas and 
other biodiversity.
    I also serve as the Manager of Conservation Partnerships for Zoo 
Atlanta, which is a member of the American Zoo and Aquarium Association 
(AZA). I currently serve as the chair of the AZA's Ape Taxon Advisory 
Group, which has oversight over all apes living in AZA institutions.
    AZA represents over 210 professionally-managed and accredited 
institutions which draw over 142 million visitors annually and have 
more than 8 million zoo and aquarium members. Our institutions dedicate 
millions of dollars annually to support scientific research, 
conservation and education programs that focus on, among other things, 
the devastating effects of the loss of vital species habitat and the 
illegal trade in endangered species parts and products.
    The Fossey Fund wishes to commend the foresight of this 
Subcommittee and the Full Committee in the establishment and 
maintenance of the Multinational Species Conservation Funds--which 
include African elephants, Asian elephants, rhinos, tigers, marine 
turtles and great apes. AZA also wishes to commend the US. Fish and 
Wildlife Service for the exemplary manner in which they have 
administered these funds. Unlike many government grants programs, this 
funding effort has put real dollars into the field in real time, with a 
minimum of bureaucratic delay or red-tape. In addition, the Service has 
been able to leverage these scarce Federal dollars with over three 
times that amount in matching and in-kind contributions.
HR. 1760, reauthorization of the Great Ape Conservation Act
    Regarding the legislation before us today, I would first like to 
thank Congressman George Miller for introducing this important bill and 
for all of his efforts in support of fisheries and wildlife 
conservation. I would also like to extend my sincerest appreciation to 
you, Mr. Chairman, for your excellent leadership in this area as well.
    Mr. Chairman, the magnificent animals featured in the Great Ape 
Conservation Act of 2000 are still in great peril today. The IUCN 
(World Conservation Union) Red List categorizes all great apes as 
either Endangered or Critically Endangered, which means they face a 
`very' or `extremely' high (respectively) risk of extinction in the 
wild. Critically Endangered great apes include the Cross River gorilla 
subspecies (numbered at only 250-280 individuals), the Mountain gorilla 
(at 800 individuals), and the Sumatran orangutan (at 7334 individuals). 
To graphically illustrate the urgency of this situation, here are the 
most recent estimations concerning population estimates for gorillas, 
chimpanzees, bonobos, orangutans, and gibbons.
    Gorilla: For the Western gorilla, including its two subspecies, the 
total population numbers between 94,500 and 110,000. For the Eastern 
gorilla, including its two subspecies, the total population is 
estimated at less than 10,000.
    Chimpanzee: The chimpanzee and the four subspecies comprising it 
now collectively number between 100,000 and 200,000. Chimpanzees are 
now extinct in 4 of the 25 countries they once inhabited.
    Bonobo: The bonobo only occurs in one range state--the DR Congo. 
Bonobo population numbers are estimated to be between 10,000 and 50,000 
today.
    Orangutan: The orangutan is comprised of two species, the Bornean 
and Sumatran organgutan. The more numerous Bornean orangutans, 
including three subspecies, number between 45,000 to 69,000. The 
Critically Endangered Sumatran orangutan is estimated at only 6,500 
individuals.
    Gibbon: Twelve species of gibbons, small apes found across 
Southeast Asia, are listed on the IUCN Red List. Two species, the 
Hoolock gibbon and the Black gibbon, are classified as Endangered and 
two species, the Javan gibbon and the Eastern Black Crested gibbon are 
categorized as Critically Endangered. Current population numbers for 
gibbons are still unknown.
    The estimated population numbers I have listed are just that--
estimates. Most global population estimates are extrapolated from small 
surveys because it is extremely difficult to obtain accurate population 
numbers and monitor trends for forest-dwelling animals. In some areas, 
civil conflict has prevented this important survey research. But one 
thing is certain: ape populations across the world are declining--and 
they are declining rapidly.
Threats:
    Threats to the great apes are numerous. For the African species, 
including gorillas, chimpanzees, and bonobos, diseases such as Ebola 
hemorrhagic fever and the commercial bushmeat trade are, by far, the 
most serious threats. Ebola is only one of at least 100 infectious 
agents that are shared between humans and great apes. In 1994 and 1996, 
in northeastern Gabon, western lowland gorillas and chimpanzees were 
nearly wiped out during human Ebola outbreaks. In a recent epidemic in 
northwestern Congo, Ebola is blamed for over 130 human deaths and over 
600 great ape deaths--over half the great ape population for the 
region.
    Bushmeat is an economically important food and trade item for 
thousands of poor rural and urban families in West and Central Africa 
and other regions of the world. Virtually uncontrolled access to forest 
wildlife, rising demand for bushmeat, lack of economic options for 
rural communities, the absence of affordable protein substitutes, and 
the opening up of frontier forests have resulted in a commercial level 
trade in wildlife that is literally emptying the forests. We are facing 
what is now popularly referred to as the ``Empty Forest Syndrome,'' 
where the trees may be left standing but the endemic wildlife is long 
removed. And if the essential wildlife--the predators, the prey, the 
seed spreaders, the natural fertilizers--are gone, the question of 
ecological balance becomes paramount.
    However, disease and the bushmeat crisis represent only two of the 
many threats to the world's diminishing great ape populations. Habitat 
loss and degradation are equally serious threats to the orangutans and 
gibbons of Southeast Asia. Until its recent protection, Sebangau 
National Park on the island of Borneo had been degraded by intensive 
logging. The 1995 population level of 13,000 orangutans consequently 
shrank to only 6,900 today, which is still one of the largest known 
populations.
    Added to these are the threats that plague great apes everywhere--
conversion of habitat to agricultural lands, the illegal pet trade, 
mining, forest fires, and civil conflict. Exploitation of forests for 
commercial logging and mineral prospecting mean that new access routes 
are extended into ape habitat, leading to increased bushmeat hunting 
and capture of animals for the illegal pet trade. Degradation of forest 
habitat also results in small, unconnected patches that isolate ape 
populations from each other and put them at an increased risk of 
extinction from chance demographic factors. The capture of infant 
chimpanzees, orangutans, and gibbons for the pet trade and 
entertainment industry frequently involves killing the mother and other 
adults. Orangutans sold as pets can yield more than $10,000 (U.S. 
dollars), but it has been estimated that five animals die for every one 
that is traded.
    Underlying and exacerbating these threats is the fact that great 
apes have very slow reproductive rates. Most apes do not reach sexual 
maturity until between the ages of 8 and 15, and can only bear young 
every 4 to 8 years. This means that ape populations simply cannot 
recover from the devastating threats they face on a multitude of 
fronts.
    Mr Chairman, H.R. 1760 represents a Congressional commitment to 
continue to address the desperate plight of the great apes. The Great 
Ape Conservation Act is a proven formula designed to enhance programs 
for the conservation of great apes by assisting efforts in many 
worthwhile endeavors. Chief among these are: 1) to address the 
conflicts between humans and great apes that arise from competition for 
the same habitat; and 2) to promote cooperative projects among 
government entities, affected local communities, non-governmental 
organizations, or other persons in the private sector. These two 
criteria are essential because it is only through local action, local 
education, and local support that realistic solutions for saving the 
great apes can be devised and implemented. If one looks at the projects 
that have been funded to date under the Great Ape Conservation Fund, we 
see that this mandate has been fully implemented. We highly recommend 
that it be reauthorized at its current appropriation level of $5 
million.
Programmatic Support of The Dian Fossey Gorilla Fund
    The Great Ape Conservation Act has been critical in helping the 
Fossey Fund achieve its goal of saving gorillas and helping people. In 
the last six years, the Fossey Fund has received over 1.3 million 
dollars in funding from the Great Ape Conservation Act. The Fossey 
Fund's work began in Rwanda in 1967 when Dr. Dian Fossey founded the 
famous Karisoke Research Center to study and protect the magnificent 
mountain gorilla. Karisoke has operated continuously over the last 44 
years--making it the world's longest running gorilla conservation 
program--and the Great Ape Conservation Act has provided us with 
critical funding to maintain this long-term, daily protection presence. 
Our work is paying off--a census conducted in 2010 showed that the 
mountain population has increased from a low of 250 individuals at Dr. 
Fossey's time to 480 individuals. This change of fortune for the 
mountain gorilla cannot be understated--it is the only known wild great 
ape population in the world that is increasing, and our results clearly 
show that it is the high level of investment in protection over four 
decades that has enabled its remarkable recovery.
    The Great Ape Conservation Act has also enhanced Karisoke's 
education programs focused on building conservation and science 
literacy and capacity in Rwanda. These programs include developing 
conservation curriculum for primary and secondary students, forming 
youth environmental clubs, supervising university students, and 
educating local leaders about the benefits of wildlife conservation.
    In eastern Democratic Republic of Congo, Great Ape Conservation Act 
funding has been instrumental in developing a grass-roots program for 
community conservation outside of national parks, in which local people 
manage their own natural resources and are empowered to protect their 
biological heritage. Using the gorilla as a flagship species, nine of 
these community reserves have been established, which provide gorilla 
and overall forest protection over a region of nearly 2.5 million 
acres, an area roughly the size of Connecticut.
    In both Rwanda and eastern DRC, the Great Ape Conservation Act has 
permitted the Fossey Fund to expand our health and development 
activities for the local communities that share their environment with 
the gorillas. These activities focus on treating intestinal parasites 
in humans living near protected areas; rehabilitating rural health 
clinics; building capacity through training medical personnel; and 
increasing access to clean water. We estimate that over 400,000 people 
in Rwanda and eastern DRC have benefited from these programs.
    It is important to recognize that funds designated for ape 
conservation protect many species beyond the apes, including our own. 
Apes live almost exclusively in the tropical forest of Asia and Africa. 
Tropical forests cover only 7% of the world's surface yet they contain 
an estimated 50% of the world's biodiversity. Africa's Congo basin, 
which is home to all three species of African great apes and represents 
18% of the world's remaining tropical forests, is estimated to contain 
10,000 species of plants, 1,000 species of birds, 700 species of fish, 
and 400 species of mammals. These complex ecosystems support not just 
their own biodiversity but humans as well. For local human 
populations--and over 100 million people live in the Congo Basin 
alone--they are a source of food, shelter, water and income. These 
forests also serve as the world's pharmacy--roughly 25% of today's 
medicines originated in the rainforest. They perform critical ecosystem 
services, both locally and globally. At the local level, they prevent 
soil erosion and regulate rainfall patterns. Globally, they act as the 
lungs of the planet, absorbing carbon dioxide and releasing oxygen. By 
storing carbon dioxide--which is a greenhouse gas--forests play a 
critical in mitigating global climate change. Roughly one fifth of 
green house gas emissions are in the form carbon dioxide that is 
released as a result of deforestation. Thus, investment by the U.S. 
government and taxpayers in protecting apes and their tropical 
rainforest homes is more than good environmental stewardship; it is an 
investment in our own future.
    Our experience at the Fossey Fund is clear. We have seen that 
support from the American people for local action to save great apes 
inspires and motivates Africans--it brings the conservation struggle to 
their doorstep, focuses on an animal icon they themselves respect, and 
empowers them to do something meaningful for their forests, for their 
mountains, and for their communities. This grass-roots approach 
directly links African and American hearts and minds in a common goal--
that we can make room on our planet for our children, for gorillas and 
other great apes, and for the majestic forests in which they live.
    The Dian Fossey Gorilla Fund strongly supports H.R. 1760 and 
encourages its swift passage out of the Committee and movement to the 
House floor.
    Thank you again for this opportunity to comment on this important 
wildlife conservation measure.
                                 ______
                                 
    Mr. Fleming. Thank you, Dr. Stoinski.
    Now, Mr. Diez, you have five minutes, sir.

 STATEMENT OF CARLOS E. DIEZ, NATIONAL COORDINATOR, SEA TURTLE 
  PROGRAM, DEPARTMENT OF NATURAL AND ENVIRONMENTAL RESOURCES, 
                   GOVERNMENT OF PUERTO RICO

    Mr. Diez. Good morning, Chair and Members of the 
Subcommittee. My name is Carlos Diez, Sea Turtle Coordinator 
for the Department of Natural Resources of Puerto Rico. I just 
want to clarify that even though I have been working in the 
Department of Natural Resources for 17 years, I have been doing 
sea turtle work since I was 14 years old as a volunteer.
    Anyway, I came here in support of the reauthorization bill 
for the Marine Turtle Conservation Act with its amendments. 
However, we also support the reauthorization of the two other 
Acts under review today.
    As many of you know, sea turtles have a very complicated 
life cycle. It includes different phases and migrations as seen 
in this diagram, the hatchlings swimming to the open ocean to 
adult females nesting on sandy beaches. During all this 
process, sea turtles inhabit or travel through many 
geopolitical areas or countries.
    As you can observe on these maps the trajectories of 
different species of sea turtles starting at Puerto Rico and 
how they migrate to other countries, they clearly indicate that 
we are dealing with shared resources, and our conservation 
efforts need to extend to other countries too. Therefore, the 
reauthorization for the Marine Turtle Fund is vital to the 
conservation of this species.
    Through these funds, conservation projects in other 
geopolitical areas such as the Dominican Republic, as an 
example, can be at least partially sponsored to assure that 
turtles that nest in Puerto Rico or any part of the U.S. are 
being protected. Through the Marine Turtle Fund, many 
initiatives have taken place, such as workshops, nest 
protection. We already heard some of these programs sponsored 
by this fund from our colleague here from Fish and Wildlife 
Service.
    In Puerto Rico, we get funding from Section 6 of the 
Endangered Species Act from the Federal agencies of Fish and 
Wildlife Service and the National Marine Fisheries Service, 
NMFS, which have been used for sea turtle conservation 
projects. Similar to the Marine Turtle Fund, we have been able 
to leverage almost the same amount of funding assigned.
    Long-term projects like the hawksbill turtles at Mona 
Island and research on the west coast of Puerto Rico have been 
very successful. Nesting numbers increased almost 70 percent in 
the last 20 years. However, there are still threats in other 
areas that need our attention.
    As you can see in these photos, all taken last year and 
this year in Puerto Rico, threats such as human and urban 
development, ocean, et cetera, continue to endanger this 
species, in particular the hawksbill turtle, which is one of 
the most critical endangered sea turtles.
    Nowadays, Section 6 of the Endangered Species Act faces 
major cuts to the point that NMFS didn't have any funding for 
this coming fiscal year which, by the way, we got awarded but 
couldn't get granted due to the lack of funding from this 
agency. Therefore, any bill, law or other initiative to be able 
to recover sea turtle populations abroad and at home as the 
Marine Turtle Fund is urgently needed.
    Sea turtles are important for the health of the oceans and 
beaches. We already heard that with our friend here, Mr. 
Somerhalder. It is the duty of the government to guarantee the 
well being of the Federal citizens.
    And even the U.S. citizens or taxpayers care about sea 
turtle conservation. I see it every day. Just two nights ago 
before I came here, residents and tourists from the States from 
a nearby beach called me and asked me to assist them in helping 
hatchlings get to the ocean. Residents from the States come 
every year to Puerto Rico to swim with turtles, observe them 
laying eggs and even participate in the conservation programs.
    So please, I kindly ask you to support this bill as it is 
submitted, which is not a lot of money, and really make this 
work and of course this country a little better and a happier 
place to be. Mucho gracias.
    [The prepared statement of Mr. Diez follows:]

    Statement of Carlos E. Diez, Puerto Rico's National Sea Turtle 
   Coordinator, Department of Natural and Environmental Resources of 
  Puerto Rico, on Re-authorization of the International Marine Turtle 
                           Conservation Fund

    My name is Carlos Diez and I am the National Coordinator for the 
Sea Turtle Program of the Department of Natural and Environmental 
Resources of Puerto Rico and also a biologist at the Endangered Species 
Program. In addition, I am a member of the IUCN Marine Turtle 
Specialist Group and National Coordinator of the Wider Caribbean Sea 
Turtle Conservation Network. However, today, I am here on behalf of the 
government of Puerto Rico and in support of the re-authorization bill 
for the International Sea Turtle Conservation Fund, submitted by our 
Resident Commissioner, Pedro Pierluisi and co-authors.
    As many of you already know, all species of sea turtles are 
threatened or endangered due to direct and indirect impacts of human 
intervention. For example, in Puerto Rico, and in many other places of 
the Caribbean, sea turtles are hunted for their meat, eggs and 
carapace. In other areas, sea turtles can be incidental victims of 
long-line fisheries or are severely affected by oil spills. Other 
sources of pollution, such as discarded plastics also cause significant 
sea turtle mortality. Even though these animals can produce many eggs 
and potentially many hatchlings, they have to contend with natural 
threats as well, such as predators and the effects of severe weather 
that can harm the beaches where the eggs are laid. In sea turtles, age 
of sexual maturity tends to be quite high (at least 16 years), so 
that's why its takes so long for a population to recover from depressed 
levels. However, sea turtle populations can recover, and a good example 
in Puerto Rico's case, at Mona Island, we have the biggest hawksbill 
turtle nesting rookery in the U.S. jurisdiction and the second largest 
in the insular Caribbean. When we started counting nests numbers in 
1989 our data indicated about 250 nests per season. Last year, we 
counted 1400 nests. The reason for this success were several factors, 
1) an international commercial ban on hawksbill products, especially to 
Japan, which used to import approximately 5000 hawksbill turtles per 
year from the Caribbean; 2) control of domestic poaching by federal and 
state law enforcement; 3) and finally Mona Island's conservation status 
as natural reserve, where development is prohibited and sea turtle 
predators such as feral pigs have been controlled.
    All these efforts were conducted in great amount thanks to the U.S. 
Federal government, in particular Fish and Wildlife Service and 
National Marine Fisheries Service (NMFS). The funding provided by these 
two agencies allowed us to not only protect these species, but also to 
understand basic information such as age to sexual maturity, population 
genetic and migration. The last one is quite important, since it give 
us the data of where these turtles were going after nesting or from 
where this turtles came from in our feeding grounds (typically reefs or 
sea grass beds). It was from saturation tagging, satellite tracking and 
molecular studies that we learned hawksbill turtles and sea turtles in 
general are shared resources, or a mixed stock in scientific terms. Our 
hawksbills turtles regularly migrate to countries such as Nicaragua, 
Dominican Republic, Colombia, and potentially elsewhere in the 
Caribbean. Green turtles tagged in PR have been found traveling as far 
as Brazil and leatherbacks cross the Atlantic up to the coast of Wales, 
or to Canada, by way of New England. Conducting surveys in PR, we've 
also re-captured animals from other countries such as U.S. Virgin 
Islands, Bonaire and the Dominican Republic. It is clear that these 
turtles are internationally shared resources.
    Therefore, if we don't protect sea turtles in other geo-political 
jurisdiction all our efforts at home are in vain. The International 
Marine Turtle Conservation Fund provides the mechanism to support such 
projects, such as the effort in the Dominican Republic, which needs 
funding to protect its beaches from turtle poachers; or in Nicaragua to 
make fisherman understand that the turtles they catch are not only 
theirs. By supporting projects like these, sea turtles are hugely 
benefited in the USA. The USA is a noble country, and most of its 
citizens enjoy helping these types of initiatives where the benefits to 
conservation are clear.
    The International Marine Turtle Conservation Fund is a method to 
provide other countries financial assistance in protecting our turtles. 
However, we (PR) as many states and other territories are in financial 
difficulties and many of our conservation programs are as well. 
Therefore, we support the amendment for including up to 20% for the 
territories to compete for funding in this bill. We have provided an 
example of a success story with the hawksbill turtles at Mona Island, 
but in PR, we have two more species, plus more nesting areas for 
hawksbill turtles that are in jeopardy. In mainland PR, we used to have 
nesting of hawksbills turtles all over, and now it is limited to very 
few areas and every year these beaches are being affected by tourist 
development, or other human related activities and of course poachers. 
Even though we have received federal funding, it always has been 
limited, due to our small area. However, we have 3 species of sea 
turtles and particularly the hawksbill which is one of the most 
endangered animals on Earth. Last year, even though we were awarded a 
grant in the Section 6 Program from NMFS, the program didn't have 
funding assigned by Congress and therefore, the grant could not be 
awarded. If we try to get funding from other sources, such as European 
Funds, ect. . ., we are rejected since many of these programs don't 
include USA due to our ``funding opportunities, such as Section 6''. 
Again, these days, those ``other funding sources'' have no funds or 
limited money to support any project. The actual status of the federal 
government, where NMFS's Section 6 (Protected Species Program) is 
without funding, it is just an example to make us support any law or 
effort that could provide funding for U.S. territories to protect sea 
turtles.
    Finally, we, the Dept. of Natural and Environmental Resources of PR 
reiterate our support for the re-authorization bill with the amendment 
to include at least 20% of the funds for U.S. territories on behalf of 
the sea turtles of USA.
    Gracias!
                                 ______
                                 
    Mr. Fleming. Thank you, Mr. Diez.
    Mr. Hosmer, you are next, sir.

            STATEMENT OF JOSEPH HOSMER, PRESIDENT, 
              SAFARI CLUB INTERNATIONAL FOUNDATION

    Mr. Hosmer. Thank you, sir. Mr. Chairman, Committee, 
esteemed colleagues, good morning. My name is Joe Hosmer, and I 
am very thankful for the opportunity to speak on behalf of the 
hunter conservation community today. I currently serve as the 
President of Safari Club International Foundation, SCIF. I am a 
life-long hunter. It has been a family tradition for millions 
of years.
    We are a charitable organization that funds and manages 
programs dedicated to wildlife conservation, outdoor education 
and the humanitarian services. SCIF has worked tirelessly to 
increase wildlife management capability throughout Southern, 
Central and Eastern Africa through strategic partnerships 
directly with African nations and conservation NGO's.
    Safari Club International Foundation believes that the 
United States plays a pivotal role in international 
conservation. The United States' continued support for 
international conservation projects is necessary both for 
continued growth of wildlife populations and for the stability 
of rural economies throughout many nations of Africa. For these 
reasons, we strongly support H.R. 50, the Multinational Species 
Conservation Fund Reauthorization Act of 2011.
    As an organization, we are highly committed to wildlife 
conservation throughout the world, but we have a particular 
affection and interest for African species. I would like to 
offer the hunting community's perspective on the importance of 
international conservation funding. There is a tremendous 
return on your investment that rural economies realize through 
effective, sustainable use wildlife practices. Our Conservation 
Committee alone dedicates over $1 million annually to global 
wildlife conservation with a specific focus on conserving 
African species.
    We are the leader in Africa, and as such we have led the 
development of the African Wildlife Consultive Forum, which 
brings together African wildlife officials, representatives of 
the African professional hunter associations, CITES, 
international NGO's and of course the U.S. Fish and Wildlife 
Service's staff. At these meetings we have increased 
collaboration for sustainable use conservation programs and 
have improved relations, which increase rural economic 
development around sustainable use hunting.
    Our speakers today have touched on the incredible impact 
that conservation funds have made for wildlife populations. I 
would like to speak specifically about the impact on rural 
economies and the conservation of these species.
    The role of sport hunting today in many developing 
countries is vital to the very survival of these communities. 
Using Southern Africa as a simple example, sport hunting has 
been one of the main economic engines in the rural communities. 
In many countries in Southern Africa, the land is just not 
suitable for agricultural use or grazing. In these areas, 
regulated hunting has been historic for the revenue of these 
local communities.
    To take better advantage of sustainable wildlife use, many 
governments have begun community-based natural resource 
programs. These programs in essence devolve the power of the 
central government so that locally created community councils 
can regulate and manage wildlife in their own areas. The 
mission is to utilize wildlife so that it remains a sustainable 
resource within their community.
    These community programs have been successful because they 
effectively create a financial incentive for the rural 
communities to actively conserve wildlife. Revenue retention 
schemes ensure that money generated from sport hunting ends up 
directly in the hands of the indigenous population.
    Particularly in Africa, creating an incentive to co-exist 
with wildlife has been a central reason why many populations of 
species are now thriving. The growing population of white rhino 
has been one of the most notable success stories as pointed out 
earlier today by a committee member.
    Unsurprisingly, in the countries like Kenya where wildlife 
utilization by indigenous people is extremely limited and where 
hunting does not exist, wildlife population levels are now low 
and in continuous decline. Trophy hunting in Kenya was banned 
in 1977, and this ban has resulted directly in an accelerated 
loss of wildlife due to the removal of incentives for 
conservation.
    As an organization, SCIF has not directly used the funds 
available through authorization. However, organizations that we 
partner with in providing matching grants have been recipients 
of funds from the Fish and Wildlife Service. The investments 
that the U.S. Government has made through the Multinational 
Species Conservation Funds are necessary. They both provide 
stability for ongoing wildlife conservation investments from 
other organizations such as us and from hunters who travel.
    H.R. 50 certainly provides significant and measurable 
success. Mr. Chairman, that is the answer to your question. It 
provides significant and measurable successes for a very small 
investment in our Federal dollars. I appreciate your time.
    [The prepared statement of Mr. Hosmer follows:]

   Statement of Joseph Hosmer, President, Safari Club International 
   Foundation, on H.R. 50, Multinational Species Conservation Funds 
                      Reauthorization Act of 2011

    Good morning, my name is Joe Hosmer, and I am very thankful for the 
opportunity to speak on behalf of the hunter-conservation community 
today.
    The Safari Club International Foundation (SCIF) is a 501(c)(3) 
charitable organization that funds and manages programs dedicated to 
wildlife conservation, outdoor education, and humanitarian services. 
Since 2000, SCIF has provided in excess of $50 million in support to 
these causes around the world. SCIF has worked tirelessly to increase 
wildlife management capability throughout Southern and Eastern Africa 
through strategic partnerships with African nations and conservation 
NGOs.
    Currently, SCIF participates on the steering committee of the 
Multinational Species Conservation Fund Coalition and SCIF has 
participated as a member of the Multinational Species Coalition for 
well over 10 years. In our current role on the coalition, we assist in 
providing grassroots support for the species conservation funds.
    Safari Club International Foundation believes that the United 
States plays a pivotal role in international conservation. We further 
believe that the United States' continued support for international 
conservation projects is necessary, both for the continued growth of 
wildlife populations, and for the stability of rural economies 
throughout many nations of Africa. For these reasons the Safari Club 
International Foundation strongly supports H.R. 50, the Multinational 
Species Conservation Funds Reauthorization Act of 2011.
    As an organization, SCIF is highly committed to wildlife 
conservation throughout the world, but we have a particular affection 
and interest for African wildlife species. I would like to offer the 
hunting community's perspective on the importance of investing in 
conservation funding internationally. There is a tremendous return on 
investment that rural economies realize through effective sustainable 
use practices for wildlife management.
    SCIF's Conservation Committee dedicates over a million dollars 
annually to global wildlife conservation, with a specific focus on 
conserving African species. SCIF's leadership in Africa has led to the 
development of the African Wildlife Consultative Forum, which brings 
together African wildlife officials, representatives of the African 
professional hunter associations, international NGO's and the U.S. Fish 
and Wildlife Services staff. At these meetings we have increased 
collaboration for sustainable use conservation programs, and we have 
improved relations to increase rural economic development around 
sustainable hunting.
    Other speakers today will touch on the incredible impact that the 
conservation funds have made for wildlife populations. I would like to 
speak specifically about the impact on rural economies that sustainable 
use and conservation of these species can have.
    The role of sport hunting today in many developing countries is 
vital to the very survival of communities. Using southern Africa as an 
example, sport hunting has been one of the main economic engines in 
rural communities. In many countries of southern Africa, agrarian or 
pastoral economies cannot flourish, due to limited land suitable for 
agriculture or grazing. In these areas, regulated sport hunting has 
been a consistent form of revenue for local communities. To take better 
advantage of sustainable wildlife use, many governments have begun 
Community Based Natural Resources Programs. These programs, in essence, 
devolve power from the central government so that locally created 
community councils can regulate and manage wildlife in their areas. 
Their mission is to utilize wildlife so that it remains a sustainable 
resource for their community.
    Successful community based programs have been developed across 
Africa including, but not limited to, Communal Areas Management Program 
for Indigenous Resources, otherwise known as CAMPFIRE, in Zimbabwe; 
Living In a Finite Environment, known as LIFE in Namibia; and other 
programs in Zambia, Botswana and Tanzania. rural communities to 
actively conserve wildlife. Revenue retention schemes ensure that money 
generated from sport hunting ends up in the hands of indigenous people. 
In the case of sport hunting in southern Africa, communities in the 
most rural portions of countries reap the benefit of conserving 
wildlife through Community Based Natural Resource Programs.
    Here are some facts and figures on the positive economic impact 
that sport hunting has in Africa.
        1.  International hunting by 18,500 hunters generates $200 
        million USD annually in remote rural areas of Africa in 23 
        countries. Private hunting operations conserve wildlife on 
        540,000 square miles, which is 22% more land mass than is found 
        in all the national parks of Africa. (Lindsey, Conservation 
        Biology, 2007)
        2.  ``Hunting is of key importance to conservation in Africa by 
        creating [financial] incentives to promote and retain wildlife 
        as a land use over vast areas. . .'' (National Geographic News, 
        March, 2007)
        3.  In Namibia, 29 conservancies involve almost 150,000 rural 
        individuals through trophy hunting, conservancy management or 
        secondary industries. (Weaver, C.L. & Skyer, P. 2003.)
        4.  The Zambian Wildlife Authority works with safari operators 
        to ensure that as part of their contract they must develop and 
        manage roads, employ Zambian Professional Hunters or Apprentice 
        Hunters, ensure that a minimum of 80% of labor comes from 
        neighboring communities, develop local infrastructure, notably 
        schools, clinic and wells, and employ Zambian game scouts to 
        manage wildlife and poaching. (Kampamba, G. 2005.)
        5.  International hunting employs approximately 3,700 people 
        annually in Tanzania. (www.tanzania.go.tz/) and supports over 
        88,000 families (Hurt & Ravn 2000)
    Particularly in Africa, creating an incentive to coexist with 
wildlife has been a central reason why so many populations of species 
are now thriving. Elephants, rhinos and lions are the best examples of 
this dynamic at work. Of the 23 southern African nations that have 
regulated hunting, an overall trend of positive species population 
growth has been reported. The growing population of white rhino has 
been one of the most notable success stories. Unsurprisingly, in 
countries like Kenya, where wildlife utilization by indigenous people 
is extremely limited and where hunting does not exist, wildlife 
population levels are now low and in continuous decline. Trophy hunting 
in Kenya was banned in 1977 and this ban has resulted in an accelerated 
loss of wildlife due to the removal of incentives for conservation 
(Baker 1997; Lewis & Jackson 2005).
    As an organization, SCIF has not directly utilized the funds made 
available through the authorizing legislation. However, organizations 
that SCIF has partnered with in providing matching grants have been 
recipients of funding from the FWS.
    The investments that the U.S. government has made through the 
multination species conservation funds are necessary. They provide 
stability and continuity for ongoing wildlife conservation investments 
from other organizations, and from the hunters who travel to Africa. 
The MSCF certainly provides significant and measurable successes for a 
very small investment of federal dollars.
    I appreciate the opportunity to speak before the subcommittee 
today.
                                 ______
                                 
    Mr. Fleming. Thank you, Mr. Hosmer.
    At this point, we will begin Member questions of witnesses. 
To allow all Members to participate and to ensure we can hear 
from all of our witnesses today, Members are limited to five 
minutes for their questions. However, if Members have 
additional questions we can have more than one round of 
questioning and usually do. I now recognize myself for five 
minutes.
    Mr. Hosmer, I greatly admire the work of the Safari Club, 
also Ducks Unlimited. I love the concept of the buy-in, sort of 
a Teddy Roosevelt conservation that is to say. Hunters have 
really the largest stake in conservation than anyone. Fishermen 
as well. And so I love the concept and I love the fact that 
private matching money far exceeds Federal money. I think that 
is definitely the right thing.
    However, this country is broke. Now we borrow 40 cents of 
every dollar that we spend. So the question is to you, sir, and 
really to everyone in this country. How can we afford to 
continue funding these programs, considering our dire financial 
situation?
    Mr. Hosmer. One of the benefits of the Multinational 
Species Conservation Fund is that they specifically work to 
solicit matching grants from NGO's and other donors, and that 
is a key element to this.
    The relatively small investment by the U.S. taxpayer is 
multiplied by the private donations that make significant 
impact for rural economies in some of the most impoverished 
parts of the world. You don't have this advantage in a lot of 
opportunity. You know, what you are doing is great and it 
echoes around the world.
    Mr. Fleming. Do you see a time when we can do this 
completely, 100 percent privately in terms of funding?
    Mr. Hosmer. I think the seed money gives it a credibility. 
I think it gives it an important credibility that helps to 
leverage.
    From the business world, if you get a big corporate sponsor 
then you can usually pick up a number of small ones, and this 
is no different. The U.S. Governments gives it great status.
    Mr. Fleming. All right. Sure. Thank you.
    Ms. Saito, for Fiscal Year 2012 the Obama Administration 
requested $9.7 million for the five Multinational Species 
Conservation Funds managed by your International Affairs 
Office. What was the justification for this funding level?
    Ms. Saito. Mr. Chairman, the budget is usually developed 
taking into consideration the Service's, the Department's, and 
the President's priorities.
    And while the Multinational Species Conservation Program is 
meritorious, it is considered among all other priorities and 
program needs of the larger organization and so what Congress 
is able to appropriate for these funds, we try to make the most 
effective use of them.
    Mr. Fleming. OK. All right. Thank you.
    Dr. Stoinski, what is the current conservation status of 
the five species of great apes that are eligible to receive 
funding under the Great Ape Conservation Fund?
    Dr. Stoinski. They are all considered endangered, which 
means that they are considered to have a very high risk of 
extinction in the near future or critically endangered, which 
means that the risk is even more great.
    Western gorillas are labeled as critically endangered, 
Eastern gorillas as endangered. Sumatran orangutan are 
critically endangered. Bornean orangutans are endangered, 
Chimpanzees are endangered and bonobos are endangered.
    I21Mr. Fleming. OK. Again, a similar question. The Obama 
Administration requested $1.9 million for the Great Ape 
Conservation Fund in Fiscal Year 2012. Break down how you would 
spend these funds.
    Dr. Stoinski. I think from our experience and what we have 
seen in Africa, a critical element is having boots on the 
ground, is employing local Africans, local people to provide 
the protection that these animals need.
    Most of these countries do not have enough funds to 
adequately outfit their national parks with rangers that go and 
do the antipoaching patrols, that guard these areas from the 
poachers that we have heard about. And so I think a significant 
portion of that funding goes to provide those boots on the 
ground, and at the same time it is a significant source of 
employment for people in these rural areas, which often suffer 
from very high levels of unemployment.
    Mr. Fleming. OK. Thank you. All right. My time is about up, 
so I will yield to the gentleman, the Ranking Member.
    Mr. Sablan. Thank you very much, Chairman Fleming.
    Ms. Saito, Chairman Fleming just asked you how the 
Administration justifies the funding request for the 
Multinational Species Conservation Fund. Let me ask you the 
other side of the question.
    How do these cuts, because there will be cuts in the money, 
a 19 percent cut. How would the cuts impact wildlife 
conservation on the ground in terms of the number of wildlife 
populations, species, range states and projects supported?
    Ms. Saito. Congressman, thank you for that question. The 
way that we manage the funds is that we identify priorities for 
the various species because we are aware of the needs, and many 
countries will submit proposals. We don't know in advance how 
many proposals we are going to get from any one country, so it 
is difficult to respond to what this would do to the range 
countries.
    In terms of the funding cuts, we would be able to fund only 
a fewer number of projects. We try to focus on the projects 
that have the highest priorities of the species needs, and also 
we will consider whether or not there are matching funds to 
maximize dollars that we have.
    Mr. Sablan. All right. Thank you. Let me go to Mr. 
Somerhalder. Ian.
    Mr. Somerhalder. That is easier.
    Mr. Sablan. What do you hear from Americans about why the 
international wildlife conservation is important to them?
    Mr. Somerhalder. What I hear, and typically this is coming 
from a younger generation, a very important one, is that 
species conservation is without a doubt extremely important by 
virtue of several things. One of them is what I learned in 
Trinidad and Tobago is these turtles are worth more alive than 
they are dead. People pay to go see these turtles.
    It props up local economies, provides protection for the 
species, brings people out of the Stone Age effectively--no 
offense--by building hospitals and schools. There is a direct 
economic impact for the loss of these species, and it is, from 
what I gather from whom I speak to often and many, that it is 
invariably important to them. What is it going to cost us down 
the road? Well, it is going to be exponentially more.
    Mr. Sablan. Thank you. Mr. Robinson, if I may, sir? Can you 
tell us? Can you provide us with an example of how the 
Multinational Species Conservation Funds contribute to our 
national security by maybe stabilizing war-torn areas and 
providing jobs for people who might otherwise be hostile to the 
United States?
    Dr. Robinson. Thank you. Thank you for that question. Let 
me just give an example from South Sudan. The Multinational 
Species Conservation Funds supported a survey of elephant 
populations in South Sudan in 2004. One of the consequences of 
that survey was a discovery of the largest mammal migration in 
Africa, a migration which probably was larger than the 
Serengeti migration.
    That justified the Government of South Sudan, a newly 
independent nation, of allocating and putting as a high 
priority the protection of those wildlife resources. At the 
same time, it was sitting with tens of thousands of people 
under arms following a 20 year war.
    The U.S., of course, has got strong strategic interests in 
South Sudan and in their independence. This survey and the 
recognition of the conservation value of this migration was 
critically important in taking a significant number of those 
people under arms and moving them through ranger training.
    So we have taken a strong presence and reallocated their 
effort into conservation and into much better governance and a 
much more stable rural countryside, and I think that is very 
much in our U.S. strategic interest.
    Mr. Sablan. My time has come, Mr. Chairman, but I would 
like to say that growing up I once told my daughter actually 
that we are related to the apes, and she asked me which side of 
the family, mine or her mother's? So the mother said no, it is 
your dad's family, but thank you.
    Mr. Fleming. I thank the gentleman. I won't weigh in on 
that. We have had similar discussions in my family. Thank you.
    Let us see. Next up is Mr. Faleomavaega, the gentleman from 
Samoa.
    Mr. Faleomavaega. Thank you, Mr. Chairman, and I want to 
commend the members of the panel for their most eloquent 
statements this morning.
    I have been listening very closely in terms of the 
testimonies, and, first of all, I definitely want to commend 
Mr. Ian Somerhalder for the tremendous job that you are doing 
not only with your foundation, but with your commitment in 
conservation.
    Mr. Somerhalder. Thank you very much.
    Mr. Faleomavaega. It was last year that another one of your 
colleagues, Mr. Pierce Brosnan, was also here and wanted to 
save the whales. I think you should do more to encourage more 
of your colleagues in the acting industry to be involved.
    Mr. Somerhalder. I shall.
    Mr. Faleomavaega. I have always said the good Lord must 
have some reason for having these animals to be with us on this 
planet. It is certainly not to kill them. I have a very real, 
soft spot in my heart making sure that we do these things.
    I do want to commend you, Mr. Chairman. You have been very 
gracious. I thought that maybe you would have at least one or 
two witnesses that would seriously question the budgetary 
allocations in terms of why we should be spending money for 
these kinds of projects and saving animals, but you have been 
very gracious. I was looking forward to maybe one of the 
witnesses would come out slashing and cutting and saying that 
we don't need the money to do this kind of activity.
    I would like to ask Ms. Saito, and again I am not a 
mathematician, Ms. Saito, but for every dollar that we spend 
for the conservation efforts that these three pieces of 
legislation provide, what does it do positively for the world 
community as far as these animals? Why should we save these 
animals?
    Ms. Saito. Thank you, Mr. Congressman, for that question. I 
think we have good reasons for wanting to save these animals. 
One of the things that Congressman Miller mentioned was that 
these funds really help the recipients help manage their own 
resources, which we think is really important.
    A lot of the recipients of these awards, some of them are 
willing to risk their lives, put their lives on the line in 
order to protect these species. In Virunga National Park--that 
is one of Africa's oldest parks--160 rangers have lost their 
lives protecting the wildlife in that park.
    Their only concern is that they have to leave their wives 
and their families without any support. They don't get any 
support from their government, so they are concerned about 
that, but yet they carry on because they really believe that 
protecting these animals is so important.
    Mr. Faleomavaega. And I know again from the side of 
understanding and trying to appreciate this in terms of what 
kind of commitment these countries have themselves, I 
appreciate the fact that some of these people at the risk of 
their lives would do these kinds of things to preserve or to 
save these animals.
    And realizing too the economics of some of these countries 
are so poor. They just don't have the resources to do the kind 
of things that we are able to do. That also raises a question 
of problems as to why should we be doing this? Why don't these 
countries themselves be committed, as committed as we are? We 
don't have elephants here in America. We don't have gorillas 
here in America.
    Why should we be committed in doing the very thing that 
other countries don't seem to be at all concerned? Or maybe 
they are concerned, but I think it comes down to the point 
where they just don't have the resources to do the work. Am I 
wrong on this?
    Ms. Saito. That is correct. Many countries do not have the 
skills to manage their own wildlife, and I think the 
Multinational Species Conservation Funds really puts an 
emphasis on capacity building in those areas, helping these 
countries gain the skills they need.
    Mr. Faleomavaega. I am sorry, Ms. Saito. My time is going 
to get a little close.
    Ms. Saito. OK.
    Mr. Faleomavaega. I just want to say thank you, and I want 
to commend Mr. Diez. I know something about turtles because I 
am from the islands myself. It is the most beautiful experience 
of being with these beautiful animals.
    The bottom line, Mr. Chairman and to our distinguished 
witnesses, is we have a moral obligation to save and to do 
everything that we can to conserve and to preserve these 
beautiful animals, and I yield back.
    Mr. Fleming. I thank the gentleman. Next is the gentlelady 
from Guam.
    Ms. Bordallo. Thank you, Mr. Chairman. Mr. Chairman, I will 
begin my questions, but before I do I would like to state my 
strong support for the three bills before the Committee today, 
the Multinational Species Conservation Funds Reauthorization, 
the Great Ape Conservation Reauthorization and the Marine 
Turtle Conservation Reauthorization Act.
    I have always been a strong advocate for wildlife 
preservation here in the United States and around the world, 
and the passage of these bills will ensure the United States 
continue to exert the leadership on multinational conservation 
issues.
    I want to thank both you, Mr. Chairman, and of course our 
Ranking Member, Mr. Sablan, for calling this important hearing 
today, and I also want to thank our distinguished witnesses for 
your testimony in support of these matters.
    My first question is to Ms. Saito. Does the Department 
support the approach of permitting grants for marine turtle 
conservation projects in the U.S. territories? It seems to me 
to mean increased competitiveness for the grants, maximizing 
the return on the dollar for the program and allows for 
appropriate cooperation in protecting these migratory species. 
So does the Department see it this way?
    Ms. Saito. Congresswoman, thank you for that question. In 
our testimony, written testimony, we did address that; that the 
Department would support having 20 percent of the funds go for 
freshwater turtles, but we would like to see that being used 
worldwide, not just for U.S. freshwater turtles.
    Ms. Bordallo. Thank you. That is on the record. All right.
    My second question or my third is to Mr. Diez. One reason 
we propose expanding the scope of the Marine Turtle 
Conservation Program to include the United States and the 
territories is the mere fact that turtles nest on the 
shorelines of all the U.S. territories, as well as the coastal 
states and the Gulf of Mexico from South Padre Island in Texas 
to the Florida Keys, Puerto Rico, the U.S. Virgin Islands and 
of course Guam and all of the other territories.
    We join 27 different nation states geographically in the 
Caribbean Sea, and this fact emphasizes the importance of 
international cooperation in species conservation. Sea turtles 
are highly migratory, and partnerships between the governments 
of the Caribbean Islands are crucial for across-the-board 
efforts.
    Puerto Rico positions the U.S. to be a leader in the 
Caribbean. Can you enlighten the Subcommittee, Mr. Diez, on the 
partnerships that the Puerto Rico Government has formed with 
neighboring islands and countries? This happens to be a 
question that Mr. Pierluisi asked me to ask.
    Mr. Diez. Thank you. Definitely. Puerto Rico, as you 
mentioned, we are kind of one of the Greater Antilles so we 
share this resource with the other islands. As you have seen in 
my presentation, it is evident that turtles from Puerto Rico go 
to different places in the Caribbean.
    Indeed, our agency has established several programs, 
collaborative programs with neighbor countries such as the 
Dominican Republic. Just a few weeks ago we were there, invited 
by the Dominican Republic to conduct workshops and train 
technicians. In the past we have also been collaborating with 
other countries such as Panama and Bonaire, Lesser Antilles.
    So we have been very active in doing that, but again the 
reason we want this reauthorization bill is because we need to 
continue sponsoring this type of measures. Some of these 
countries, they have some money, but we need to match them up 
to be able to complete the program. But definitely we are 
working on that with the few financial funding that we have.
    Ms. Bordallo. Thank you. Thank you very much.
    I have a question for John Robinson, Dr. Robinson. On 
Tuesday of this week an art dealer in Philadelphia was charged 
with smuggling in about a ton of ivory, representing hundreds 
of poached African elephants. How does the Multinational 
Species Conservation Fund contribute to stopping wildlife 
crime?
    Dr. Robinson. Maybe my answer could reflect and just focus 
on elephants indeed because the Multinational Species 
Conservation Funds directly support a lot of law enforcement 
monitoring at sites where elephants occur.
    They support information gathering by informant networks in 
surrounding communities, information which tends to flow to 
government agencies in various countries, and the funds support 
interdiction efforts not directly, but the interdiction efforts 
of a lot of national level government agencies, so very much 
directly supporting law enforcement that deals with the 
international wildlife trade.
    Ms. Bordallo. Thank you. Thank you very much. I want to 
thank the Chairman. I am sitting in the Ranking position now so 
I asked him for a little bit more time, so I thank you very 
much and I yield back.
    Mr. Fleming. The gentlelady yields back. Next is Mr. 
Miller, the gentleman from California.
    Mr. Miller. Thank you, Mr. Chairman. I want to thank all of 
the witnesses for their participation and for their testimony 
and for their support. I have just a couple of questions.
    One, Dr. Robinson, you suggested that you would like to see 
this one authorization, the three programs moved together. Is 
that consistent with the rest of the members of the panel? Does 
anybody have an objection to that?
    [No response.]
    Mr. Miller. Thank you. It probably makes for an easier 
administration in the sense of how you spend your resources 
efficiently if we were to do that.
    Mr. Hosmer, I want to thank you very much for being here 
this morning on behalf of the Safari Club. I said I was in 
Kenya. I was actually in Zimbabwe with the Campfire Program 
when I was spending time with the antipoaching forces there. I 
supported Campfire from the inception and think that it has 
made some positive changes. So thank you very much for being 
here.
    Mr. Somerhalder, thank you so much for being here. I think 
one of the great strengths of these programs--I wear another 
hat in Congress, and that is I am the senior Democrat on the 
Education Committee. These programs also provide a great 
education platform for young people in our schools, about 
introduction to sciences, a whole range of sciences that they 
never saw were interconnected, but in the materials that are 
produced are really quite remarkable.
    I had the opportunity to be at the Bronx Zoo and watch the 
education programs on site at the Bronx Zoo, but then go into 
the science high school in Harlem and see the science programs 
that were developed there and biology and zoology and seeing 
young people knit all of this together, so that is one of the 
spinoffs that we see on this side of the Atlantic, if you will, 
that is really very, very exciting, and the real-time 
presentation of what is going on in the field is also I think 
very, very exciting.
    I have to say, Mr. Chairman, obviously we are concerned 
about demonstrating the benefits and any kind of cost/ benefit 
analysis. Something else happens here too that I see maybe a 
little bit more domestically sometimes within the National Fish 
and Wildlife Foundation, but very often if you go to somebody 
and say I am from the Federal government here and I want to 
talk to you about the use of your lands or what we might do 
here for wetlands or what have you, you don't get a good 
response.
    But we have also created a whole range of intermediaries, 
whether it is Ducks Unlimited or California Waterfowl or 
different organizations or Fossey Foundation where they have 
created a number of people who can make other points of contact 
and talk to people I don't mean in the same language as in 
language-language, but in the context of culture and in the 
context of heritage and in the context of history.
    Very often what we have seen, certainly in creating habitat 
in the Central Flyway and the Western Flyway, is people have 
stepped up and said I will do you one better. If I can do this 
in my family's name and we can live here as long as we are 
here, you can have it all. Just do it in the name. We want to 
do this for the flyways or what have you.
    So there are really all of these other interactions that 
take place that it is hard to describe a value to, but when the 
Government of South Sudan that has a million things on their 
mind, somebody has to find a way to ask them a question so they 
can respond in real time because you have to have the answer 
now. I think that is what we are seeing here.
    So as much as the U.S. Government brings its credibility, 
it brings its stability, it creates other avenues where you may 
not want the government asking that question or people won't 
respond to it because of the politics. That is one of the 
exciting things that I have seen on the ground over the years 
with these organizations.
    Yes, there are some very wealthy people that give huge 
amounts of money to all of these organizations, but they also 
want to see us have some skin in the game and the 
organizational aspects that the government brings or the 
foundations bring to this.
    So this to me has always been the most exciting. I wish I 
could do some of this more so in Education in terms of leverage 
and involvement, one of the most exciting things I have seen 
develop in the Federal government in my time here because of 
the resources.
    The idea that Ian--I will use his first name here. That he 
would have the ability to transmit to another generation the 
magnificence and the importance of these species and the care 
of these species and the responsibility. All of those words are 
very important in the rest of their lives, but if they can 
figure out the responsibility and the care and the importance 
here that is a huge gift that this poor, old eight-ball there 
didn't know he was getting involved in, but it is quite 
remarkable I think if we can see it.
    You know, you think about Hyatt or Hilton. Gee, if they 
locate and people can swim with the turtles or something they 
would think they have a gold mine. Let us remember, these are 
economic engines for these nations in many ways, and I think 
that was the point of Campfire. It sounds like a very strange 
tradeoff, but at that time there wasn't anything else going on 
at that moment in Zimbabwe. Actually everything that was going 
on was wrong in terms of the interest of these species.
    So this is a crazy quilt that has been knit together with 
this really small pot of Federal resources, but an exciting 
one.
    Thank you. You have been very generous with your time, Mr. 
Chairman. I hope we can work together to get this legislation 
to the Floor and to the President's desk. Thank you so very 
much for your interest and your concern.
    Mr. Fleming. I thank the gentleman. Certainly I think there 
is a consensus that probably the best leverage of Federal 
dollars that certainly I have seen is what happens in these 
programs. No question about it. You get two for one with 
private dollars, and we get tremendous benefits from what is 
relatively a low amount of expenditures compared to everything 
else. Everything around here starts with a B or a T. It is 
always nice to see one that starts with an M.
    We have just a few more questions, so if you will hang with 
us for just another brief round? I want to follow up on what 
Ms. Bordallo was referring to, and that is that a ton of ivory 
was confiscated. How many elephants is represented by a ton of 
ivory? Is there any calculus on that?
    Dr. Robinson. Of course, it depends a little bit on the 
size of the tusk, but we are probably dealing with a couple 
hundred animals.
    Mr. Fleming. OK. So that is a remarkable number. Now, I 
haven't traveled in Asia since the late 1970s, but I remember 
both in Hong Kong and also mainland China and other places 
virtually any retail store you went to there was a tremendous 
amount of ivory and beautiful ivory pieces that had been formed 
and fashioned into very decorative items. Would I see that 
today if I traveled in Asia?
    Dr. Robinson. You would actually see a fair bit of it. A 
lot of it probably would be illegal, although meant to be 
illegal. The amount of ivory carving though is significantly 
less than it once was.
    There have been one-off sales of confiscated ivory from 
range state countries. That is legal. So there is a fair bit of 
ivory still on the market and still a fair bit of ivory being 
carved.
    Mr. Fleming. Because obviously as long as there is a market 
for it there is going to be a drive because ultimately it is a 
financial equation for many.
    What about the buy-in from other countries? You know, we 
are contributing. We have certainly our private partners in 
this. We have the countries themselves cooperating with us. 
What about other countries that can afford to help out? Are we 
getting buy-in from them? Anyone?
    Dr. Robinson. I am sorry to keep monopolizing these 
answers. What we are seeing actually in a number of countries 
is the very fact that the U.S. Government involvement in some 
of these efforts is really triggering a recognition that 
wildlife conservation is hugely important.
    I have just come back from Thailand where the government is 
doing some very, very significant antipoaching against tiger 
poaching. There is a level of commitment that we have never 
seen in the past, and I think it is related directly to exactly 
these issues.
    Mr. Fleming. So you would feel and your suggestion is that 
if the U.S. were to for some reason not be involved other 
countries that are today would perhaps not be involved or 
disengage in some way?
    Dr. Robinson. Yes. I mean, the tiger issue is actually a 
very important one. The Multinational Species Conservation Fund 
supported tiger conservation at a time when tiger conservation 
was not in vogue.
    There was significant pickup politically around the world. 
There was the St. Petersburg Tiger Summit that was hosted by 
Prime Minister Putin in November, and yet the intellectual 
imprint of the U.S. in pushing forward tiger conservation is 
significant and continuing. The U.S. was not an official 
partner at that summit, but our fingerprints were all over it.
    Mr. Fleming. OK. I thank the gentleman. I yield then to Ms. 
Bordallo for her questioning.
    Ms. Bordallo. Thank you. Thank you, Mr. Chairman, for 
allowing a second round here.
    I would like to add to what the Chairman talked about, 
ivory being sold, figurines, jewelry. When I first came to 
Guam, my home, right after the war I did see a lot of ivory in 
stores, but you don't see as much as you did in those days, and 
that was way back in 1948, 1949, 1950.
    But when I was Chair of this particular Committee in the 
last Congress, one of our witnesses was the CEO of Tiffany's, 
and because there is a lot of concern about destroying coral--
we had a number of bills that we were hearing--he came to 
testify. Tiffany's today does not sell any coral jewelry.
    So I think if we get out there and try to talk to some of 
these people they would suspend selling this precious like 
ivory, coral and other things, but I just wanted to add that to 
what you were talking about.
    I do have a question for Director Saito. Some have 
criticized these conservation funds as an unwise use of 
taxpayers' money. However, I understand these programs are able 
to significantly leverage their resources with outside matching 
funds.
    So could you speak to the value and the effectiveness of 
these species conservation funds, particularly with regard to 
other conservation programs?
    Ms. Saito. May I ask for a clarification when you reference 
other conservation programs?
    Ms. Bordallo. That is correct.
    Ms. Saito. Any conservation programs?
    Ms. Bordallo. Any.
    Ms. Saito. OK. I think that one of the real values of the 
Multinational Species Funds is that we are able to have 
private/public partnerships that have really worked well, and 
these private partnerships have brought money to the table at a 
rate of roughly $1 is matched with another $1.50, so you are 
seeing many organizations chipping in money to help fund these 
projects.
    When we have a call for proposals we are looking for 
proposals that have matching funding attached to them because 
that is another way that we can leverage the funds, the few 
funds that we have, so this is a really important feature of 
the Multinational Species Conservation Funds.
    Ms. Bordallo. Thank you. For Dr. Robinson again, can you 
provide an example of how the Multinational Species 
Conservation Funds supports United States development goals by 
improving local livelihoods, health and opportunities for women 
and youth?
    Dr. Robinson. I think there is a pretty tight correlation 
between wildlife and human livelihoods. Wildlife can provide 
benefits, and Mr. Diez gave some very nice examples of sea 
turtles providing benefits in Puerto Rico. Wildlife also is a 
threat sometimes to human livelihoods, and some of the 
conservation funds have been used to deal with the conflict 
actually between wildlife and people in landscapes.
    Elephants, for instance, have a very strong negative impact 
on crops if those crops are near protected areas, and the funds 
have supported a whole range of programs aimed at mitigating 
the impact, mitigating that conflict between elephants and 
people. Once you can mitigate that impact and actually generate 
benefits from the elephant conservation then people support 
that elephant conservation, and of course that has direct 
impacts on livelihoods. It has especially direct impact on 
women who do much of the work in those agricultural landscapes.
    Ms. Bordallo. Thank you very much, Doctor.
    And one last question, which I am sure that all of us are 
very curious about, and it is for Ian Somerhalder. How did you 
come to care about international wildlife conservation?
    Mr. Somerhalder. Thank you for that question. I am from the 
Gulf Coast of Louisiana, and due to when you grow up in an 
ecosystem as delicate as that you obviously learn a very quick 
appreciation. It is familial. It is environmental.
    In the wake of the BP oil spill last year I realized that 
the balance that we are all hanging in has gotten to a point 
where it is so drastic and somewhat dire that I could not sit 
around and watch anymore. It is much better to be proactive.
    I understand that I have such a youth outreach component, 
so if you can create generational change, if you can instill in 
youth what we are all talking about right now, then I think 
what you have is an entire new generation of sort of foot 
soldiers of conservation.
    When you make young people understand that clean air, 
water, food and medicine are not only just national security 
risks to the United States, but to every nation, to every 
family and essentially every person.
    Ms. Bordallo. Well, thank you very much, and thank you, Mr. 
Chairman, for allowing me a few extra questions.
    T1Mr. Fleming. OK. I thank the gentleman. Mr. Miller?
    Mr. Miller. Thank you, Mr. Chairman. You have been very 
generous with your time.
    I would just like to ask unanimous consent that a letter 
from Dr. Jane Goodall in support of this legislation be made a 
part of this hearing record.
    Mr. Fleming. OK. Without objection, so ordered.
    Mr. Miller. Thank you.
    [The letter from Dr. Goodall follows:]

            Statement of Jane Goodall, Ph.D., DBE, Founder, 
           The Jane Goodall Institute & UN Messenger of Peace

    Dear Chairman Fleming and Members of the Subcommittee:
    Thank you for inviting me to testify at this very important 
hearing. While my schedule unfortunately prevents me from speaking in 
person today, I am grateful for the opportunity to submit this 
statement in strong support of Congressman George Miller's legislation, 
H.R. 1760, ``The Great Ape Conservation Reauthorization Amendments Act 
of 2011.''
    The Great Ape Conservation Fund, established by this Act, has 
supported numerous successful projects to address the protection of 
apes, including gorillas, orangutans, chimpanzees, bonobos and gibbons.
    But there is still a great deal to be done if we are to stop, or 
even slow, their march towards extinction.
    Since its creation, the Great Ape Conservation Fund has supported 
enormously efficient and cost effective programs. Of course, a dollar 
goes a lot further in many developing countries than it does in the 
U.S. But even more significant is the fact that a relatively small 
amount of federal investment in the fund has leveraged a great deal of 
public and private contributions.
    In large part due to the support of the U.S. government, the Jane 
Goodall Institute (JGI) has been able to attract additional funding 
from a variety of other sources in the U.S. and in foreign countries. 
For example, U.S. funds have helped JGI pioneer a successful program in 
Tanzania to address deforestation by working with local communities. 
This U.S. commitment led the Royal Norwegian Embassy in 2009 to award 
JGI a $2.7 million grant to expand this work to a much larger 
chimpanzee habitat to the south. Without the leverage from U.S. 
support, we could not pursue the integrated approach to conservation 
that we know is the only hope for saving chimpanzees and a host of 
other species. We are able to help local communities living near 
chimpanzee habitat make a living in ways that do not destroy the forest 
and improve their lives so that they do not transmit disease to the 
chimpanzees. This approach is good for the chimpanzees, for the local 
communities and, indeed, for all of us.
    As the threats to great apes mount, the need for support far 
outstrips the amount of funding available.
    Habitat loss from the extraction of lumber, minerals and other 
natural resources for the manufacture of commercial products; rapidly 
increasing local populations who are struggling to survive; hunting for 
the commercial, illegal bushmeat and pet trades; human-wildlife 
conflicts; and outbreaks of deadly disease are some of the gravest 
pressures facing great apes.
    Yet, the potential benefits of supporting great ape protection are 
increasing, as well. Grants through the Great Ape Conservation Fund 
have supported projects such as wild ape research, efforts to monitor 
the health of wildlife, and work to halt the trade and consumption of 
illegal, commercial bushmeat, which has been linked to disease 
transmission between humans and wildlife. By protecting ecosystems, the 
fund also protects natural pharmacological ingredients. The 
prescription drugs made from these ingredients have widespread health 
benefits and are a major driver of U.S. economic growth. More than half 
of the most prescribed medications in the U.S. contain an ingredient 
derived from nature.
    Programs supported by the fund also have helped to advance U.S. 
security goals by stabilizing communities in areas of the world often 
fraught with conflict and where governments remain fragile. These 
programs create job opportunities and development within these regions, 
reducing the chances of conflict while opening up foreign markets to 
U.S. trade. In addition, by focusing governments and communities on a 
common cause, conservation efforts can build diplomatic relationships 
and help to prevent conflict.
    Finally, great apes themselves promote the health and diversity of 
ecosystems. Great apes help to disperse the seeds of the fruits they 
eat, eliminating them on new ground. This underpins entire ecological 
communities. By protecting great ape habitat, we are also protecting 
the myriad of species that share the same ecosystems as the apes and 
the natural products that millions of people depend on for survival. In 
the Congo Basin, where four of the five great ape species live, the 
forests provide food, shelter and livelihoods for many of the region's 
60 million people.
    Thus, while the plight of great apes in Africa or Asia may seem far 
away, their fate should concern us all. Measures to protect great apes 
impact our health, security, environment and more.
    Finally, I cannot speak about chimpanzees without mentioning what 
to me is so important--the fact that there is still so much to learn 
about and from chimpanzees and other great apes. As I have said on 
previous occasions, future generations will not easily forgive us if we 
allow the great apes to become extinct on our watch. Please take this 
into account as you consider this important legislation.
    Thank you for allowing me to contribute to this hearing. I applaud 
Congressman Miller for taking the lead on it and Chairman Fleming for 
calling this hearing so that I and others can explain why it is so 
important.
                                 ______
                                 
    Mr. Fleming. Additionally, for the record, we have a letter 
or actually testimony from Mr. Jack Hanna, whom we all know, a 
letter from Kenneth Feld, a statement by Jane Goodall, as well 
as a letter, and also a letter represented by 24 conservation 
groups. I offer that to be submitted to the record. No 
objection, so ordered.
    [The prepared statement of Mr. Hanna follows:]

Statement of Jack Hanna, Director Emeritus, Columbus Zoo and Aquarium, 
                  on H.R. 50, H.R. 1760, and H.R. 1761

    Thank you Chairman Hastings, Ranking Member Markey, and the members 
of the House Committee on Natural Resources for allowing me to provide 
testimony about three critically important bills, H.R. 50, H.R. 1760, 
and H.R. 1761, which would reauthorize programs benefitting some of the 
most well-known and threatened species in the world.
    My love for animals is a lifelong passion. As a boy I worked for 
our family's veterinarian. I worked at the Central Florida Zoo in the 
mid-1970s, and in 1978, I became director of the Columbus Zoo. During 
my time there we increased attendance in part by focusing on events 
that would engage and educate the public about animals they probably 
would never have the opportunity to see in person if not for zoos and 
aquariums. Since 1992 I have been Director Emeritus at the Columbus Zoo 
which allows me the time to focus on additional efforts that increase 
awareness about animals and cultures from all parts of the globe.
    I want to note the extraordinary efforts of the nation's accredited 
zoos and aquariums in conserving wildlife. With 178 million visitors to 
223 accredited zoos and aquariums each year, these institutions connect 
people with animals. According to the Association of Zoos and Aquariums 
(AZA), accredited zoos and aquariums have provided more than 
$90,000,000 per year over the past 5 years to support more than 4,000 
field conservation and research projects in more than 100 countries. 
Zoos and aquariums also are critical partners in rescue, 
rehabilitation, confiscation, and reintroduction efforts for 
distressed, threatened, and endangered species.
    More than twenty years ago, AZA established the Species Survival 
Plan (SSP) program--a long-term plan involving genetically diverse 
breeding, habitat preservation, public education, field conservation 
and supportive research to ensure survival for many threatened and 
endangered species. SSP species are often ``flagship species,'' well-
known animals such as the giant panda, California condor, and lowland 
gorilla. There are currently more than 300 SSP Programs.
    The bills before the Committee today for its review--H.R. 50, the 
``Multinational Species Conservation Funds Reauthorization Act of 
2011,'' H.R 1760, the ``Great Ape Conservation Reauthorization 
Amendments Act of 2011,'' and H.R. 1761, the ``Marine Turtle 
Conservation Reauthorization Act of 2011''--are vital to the successful 
sustainability of some of the greatest animal species. I want to 
commend the sponsors of these bills, Representatives Don Young, George 
Miller, and Pedro Pierluisi, as well as the cosponsors, for their 
leadership on species protection.
    We know that these animals face significant challenges including 
deforestation, poaching, and development in their habitats. The funds 
provided by Congress have served as the catalyst for the implementation 
of hundreds of projects worldwide ranging from highly sophisticated and 
innovative data collection, tracking, research and monitoring programs 
to providing essential on-the-ground resources to game wardens and law 
enforcement officials who have been entrusted to protect these 
magnificent animals from the dangers that they face daily. These 
programs also recognize the value of promoting cooperative projects 
among government entities, NGOs and the affected local communities in 
the range states.
    In addition, these programs have leveraged more than three times 
the U.S. federal investment through matching contributions from public 
and private partners. These funds have also been effectively and 
efficiently managed and distributed by the U.S. Fish and Wildlife 
Service. During these difficult economic times of budgetary challenges, 
it is precisely these types of programs that deserve Congress's 
support.
    Again, I want to thank Chairman Hastings, Ranking Member Markey, 
and the members of the committee for your past support of wildlife 
conservation, and I look forward to working with you in the future on 
these very important issues.
    Thank you.
                                 ______
                                 
    Mr. Fleming. I am reminded by my staff associate here, Mr. 
Burroughs, that the slogan back in the 1970s was that only 
elephants should wear ivory, and certainly that is something we 
should take away from today.
    Also, I would like to ask the members of the panel--I came 
in late because of a meeting that ran late in the Capitol--I 
haven't had a chance to meet any of you. Some of the Members on 
the dais here may also, so if you have a moment to stick around 
after adjournment we would appreciate that as well.
    If there are no other questions, I would like to thank all 
the witnesses today for your valuable testimony and 
contributions. Members of the Subcommittee may have additional 
questions for the witnesses, and we ask that you respond to 
these in writing. The hearing record will open for 10 days to 
receive these responses.
    I want to thank Members and staff for their contributions 
to this hearing. If there is no further business, without 
objection the Subcommittee stands adjourned.
    [Whereupon, at 11:51 a.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [A letter submitted for the record by Kenneth J. Feld, 
Chairman and CEO, Entertainment, Inc., follows:]
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    [A letter submitted for the record by the Multinational 
Species Coalition on H.R. 50, H.R. 1760, and H.R. 1761 
follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                               <all>

</pre></body></html>
